<html>
<title> - FY'03 FOREST SERVICE PROGRAM BUDGET</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                  FY'03 FOREST SERVICE PROGRAM BUDGET
=======================================================================

                           OVERSIGHT HEARING

                               before the

                      SUBCOMMITTEE ON FORESTS AND
                             FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             March 12, 2002

                               __________

                           Serial No. 107-92

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov








                           U.S. GOVERNMENT PRINTING OFFICE
78-152                          WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001









                         COMMITTEE ON RESOURCES


                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                   SCOTT McINNIS, Colorado, Chairman
            JAY INSLEE, Washington, Ranking Democrat Member

John J. Duncan, Jr., Tennessee       Dale E. Kildee, Michigan
John E. Peterson, Pennsylvania,      Tom Udall, New Mexico
  Vice Chairman                      Mark Udall, Colorado
Mark E. Souder, Indiana              Rush D. Holt, New Jersey
Michael K. Simpson, Idaho            Anibal Acevedo-Vila, Puerto Rico
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona
C.L. ``Butch'' Otter, Idaho
                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 12, 2002...................................     1

Statement of Members:
    Inslee, Hon. Jay, a Representative in Congress from the State 
      of Washington..............................................     3
    McInnis, Hon. Scott, a Representative in Congress from the 
      State of Colorado, Prepared statement of...................     1
    Peterson, Hon. John E., a Representative in Congress from the 
      State of Pennsylvania......................................     1

Statement of Witnesses:
    Bosworth, Dale, Chief, Forest Service, U.S. Department of 
      Agriculture................................................     4
        Prepared statement of....................................     6


        OVERSIGHT HEARING ON FY'03 FOREST SERVICE PROGRAM BUDGET

                              ----------                              


                        Tuesday, March 12, 2002

                     U.S. House of Representatives

               Subcommittee on Forests and Forest Health

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice at 4:08 p.m., in 
room 1334, Longworth House Office Building, Hon. John E. 
Peterson presiding.

  STATEMENT OF THE HON. JOHN E. PETERSON, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF PENNSYLVANIA

    Mr. Peterson [presiding]. Good afternoon. I am Congressman 
Peterson from the Fifth District of Pennsylvania, the 
Subcommittee Vice Chair filling in for our Chairman, Mr. 
McInnis, for the moment. We will call to order the Committee on 
Resources' Subcommittee on Forests and Forest Health for our 
oversight hearing on the Fiscal Year 2003 Forest Service 
Program Budget.
     Under Committee Rule 4(g), the Chairman and the Ranking 
Minority Member can make opening statements. If any other 
members have statements, they can be included in the hearing 
record under unanimous consent.
    Mr. Peterson. At this time, I will share with you Mr. 
McInnis' statement.
    [The prepared statement of Mr. McInnis follows:]

  Statement of The Honorable Scott McInnis, Chairman, Subcommittee on 
                       Forests and Forest Health

    The Forest Service provides leadership in the management, 
protection and use of the nation's forests and rangelands. The mission 
of the USDA Forest Service is to sustain the health, diversity, and 
productivity of the Nation's forests and grasslands to meet the needs 
of present and future generations needs. Through implementation of land 
and resource management plans, the agency ensures sustainable 
ecosystems by restoring and maintaining species diversity and 
ecological productivity that helps provide recreation, water, timber, 
minerals, fish, wildlife, wilderness, and aesthetic values for current 
and future generations of people.
    Through technical and financial assistance, the USDA Forest Service 
assists States and private landowners in practicing good stewardship, 
promoting rural economic development, and improving the natural 
environment of cities and communities. The agency continues to develop 
and use the best available scientific information to facilitate 
achievement of our goals and objectives. Domestic and international 
activities are directed at developing values, products, and services in 
such a way as to maintain ecosystem health.
    Today we will take a closer look at the Forest Service's budget for 
the coming fiscal year which provides the means of achieving these 
important objectives. As always, it's a pleasure to have the Chief 
before the Subcommittee, and I look forward to hearing from Mr. 
Bosworth today.
    Following an unusually heavy fire season in 2000, the Secretaries 
of Agriculture and Interior produced a National Fire Plan and were 
funded an additional $1.8 billion by Congress to identify and begin 
implementing a long-term solution to the U.S. wildfire problem. 
Congress renewed that commitment last year. While very real progress 
has been made in battling the forest fire problem, many issues still 
remain.
    Earlier this year, the General Accounting Office issued the latest 
in a long-line of reports criticizing the Departments of Interior and 
Agriculture for failing to adequately integrate their efforts to reduce 
the menacing specter of catastrophic forest fires. The GAO asserted in 
its January report that this lack of meaningful coordination continues 
to hamper the efficiency and effectiveness of the National Fire Plan.
    Without strong leadership the program fails to live up to 
expectations.
    <bullet> LLittle progress will be made in reducing fuel loads in 
the wildland urban interface. Communities will continue to be at risk 
of devastation by catastrophic fires.
    <bullet> LStates will be inadequately involved in identifying 
communities at risk and in planning strategies for meeting plan 
objectives.
    <bullet> LProjects will be tied up in the analysis paralysis that 
plagues the agency.
    As the Members of this Subcommittee remember well, the GAO offered 
a similar criticism of the relevant Departments and Agencies before our 
panel last summer. At the time, I put the then newly staffed 
Departments of Interior and Agriculture on notice--either fix the 
problem or Congress will fix it for you. The fix that I suggested at 
the time was the establishment of a National Fire Czar, a National Fire 
Council or some other inter-agency structure whose role would be to 
bring uniformity and consistency to federal wildland fire policy. 
Today, nearly nine months after I first issued it, I reiterate that 
ultimatum--if the involved agencies do not move quickly and 
aggressively to create the institutional structures needed to fully 
integrate National Fire Plan efforts, Congress stands ready to assume 
the leadership role.
    The obvious way for Congress to remedy these implementation 
inadequacies is to enact the principles outlined in a December 2001 
National Academy of Public Administration report, which called for the 
creation of a National Wildland Fire Policy Implementation Council. 
Whether through a National Fire Council or a National Fire Czar, it is 
clear that a new administrative entity in some form is needed to pull 
together the focus, efforts and energies of the disparate federal 
agencies which implement the National Fire Plan.
    It is my understanding that various proposals to establish an 
inter-agency, inter-disciplinary National Fire Council are floating 
around within the Administration on various levels. This is very good 
news. But while these proposals sound meritorious and laudable based on 
the information I have received, the time for proposals is long since 
passed. Fire season is nearly upon us and the time for action is now.
    Later this spring, this Subcommittee will hold oversight hearings 
specifically focused on National Fire Plan implementation. If an inter-
agency fire council or its equivalent has not been created through 
administrative direction by this time, rest assured that legislation 
built on the principles outlined by the National Academy of Public 
Administration will begin moving through this Committee.
    Historically, the agency has also been beleaguered by financial 
accountability and performance management problems. The GAO testified 
in February 2000 that the Forest Service is taking actions to address 
known problems with its financial management and reporting. Despite 
these efforts, major hurdles to achieving financial accountability 
remain. The agency remains unable to reliably track major assets worth 
billions of dollars, accurately allocate revenues and costs to its 
programs in its financial reports and accurately prepare its financial 
statements. There are also numerous financial reporting errors and 
major internal control weaknesses.
    According to the GAO, while the Forest Service has made 
considerable progress toward improved performance management, much 
difficult work remains. The agency still faces several major hurdles 
before it can provide accurate and timely information on how much of 
its funds are spent on specific strategic goals and objectives and what 
is accomplished with the money. The agency's annual performance 
measures often do not adequately indicate the outcomes the agency 
intends to achieve. As a result, they do not always encourage progress 
toward the agency's strategic goals and objectives and are not clearly 
linked to the long-term performance measures.
    I know that, under the tutelage of Mr. Bosworth and Secretary 
Veneman, real strides have been made in restoring needed accountability 
to the Forest Service's finances. I look forward to hearing about that 
progress as well as what future steps will be taken to ensure that the 
Forest Service's financial house is in order.
    Although the agency has continued to improve its financial 
accountability and performance management, given its history, continued 
vigilance seems appropriate. I will request that GAO review the 
progress and describe the work that remains for the Forest Service to 
achieve financial accountability and improve performance management. I 
would hope to have that review completed by the end of this calendar 
year.
    The integrity of the entire Forest Service has been compromised by 
unprofessional, unethical behavior of a few employees. The agency is 
faced with the task of restoring their credibility.
    The President's Fiscal Year 2003 budget proposes includes several 
major shifts between and within programs areas as well as new 
initiatives and programs and elimination of other programs.
    The Economic Assistance Program, benefitting local communities has 
been eliminated.
    Increased funding of the FIA program and other priority shifts 
within Research and Development will result in the closure of several 
labs and the termination of research projects.
    Another issue that I am especially interested in is this Charter 
Forest proposal. In an attempt to streamline the decision-making 
process, the Administration proposed to establish ``charter forests,'' 
to test new management, budget, contracting and governance techniques. 
I know my Colleague Tom Udall is very interested in this issue. The two 
of us sent a letter to the Chief last year suggesting that the Forest 
Service should begin testing new and innovative approaches to 
management the nation's forest resources. We look forward to hearing 
about the proposal especially how it will streamline the natural 
resources decision-making process, establishing scientific accuracy, 
accountability, accessibility, trust-building, and efficiency in the 
planning process.
    Other legislative proposals include: fireplain easements, permanent 
authority for recreation fee demonstration program, increased timber 
competition and revised schedule for ski fees.
    It is with this that I welcome Mr. Bosworth and thank him for 
taking the time to appear before our Subcommittee. We look forward to 
hearing from the Forest Service on the administrations strategy for 
managing the nation's forest. I know the hearing will be a constructive 
dialogue, one that I look forward to continuing with Mr. Bosworth, Mr. 
Inslee and the other Members of this Subcommittee in the coming weeks, 
months and years.
                                 ______
                                 
    Mr. Peterson. I now recognize Mr. Inslee, the Ranking 
Minority Member, for any statement he may have.

STATEMENT OF THE HON. JAY INSLEE, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    Mr. Inslee. Thank you, Mr. Chair, and thank you all for 
coming to the hearing. These are very important procedures 
because this is obviously where the rubber meets the road. It 
is not just more policy rhetoric, but we are dealing with real 
numbers here. So, we appreciate the opportunity to talk with 
you.
    I just wanted to mention three things: First, concern about 
our enormous gap between our needs for maintenance and 
decommission arose and our existing budget. I am sure that all 
of us recognize that that is a large gap. But to put it in 
perspective, I was just now meeting, by coincidence with a 
couple of constituents who have been working with the Forest 
Service for 4 years to do an inventory of the needs in one 
little, teeny, tiny patch of the Forest Service on the Hood 
Canal, west of Hood Canal in the Olympic National Forest.
    The needs there are conservatively estimated at about 1200 
miles of significant decommissioning. As far as I can tell, I 
am advised that the entire budget for the entire nation is 
about 1500 miles. So, we can almost consume the entire 
maintenance decommissioning budget, I think, next to my little 
district, which would be fine with me, by the way, but Mr. Byrd 
may disagree in the Senate or that other chamber.
    That is disturbing because I am hearing more and more that 
the biggest polluter of our water is us, is the Federal 
Government in our siltation problem with our salmon problem it 
is particularly acute in the State of Washington. So, I will be 
interested in your comments about what is the most realistic 
way we can boost that commitment to take care of our old roads 
instead of just building new ones.
    My second issue is our Roadless Area policy, obviously, so 
you can tell us where the agency is because many of us think it 
is more important perhaps to fix the roof or the barn that is 
terribly leaking before we put on another addition. Given the 
nature of the extreme damage that we are doing with our 
existing roads, many of us think that that should be our 
national priority.
    The third issue I am interested in, if you can make 
comments about our fire safety response, we still would like to 
know in the best way you can tell us as to how this response, 
we hope, will be different than past responses to past 
tragedies, and if you can bring them up to speed on your 
efforts in that regard. Thank you, Mr. Chair.
    Mr. Peterson. I thank the Ranking Member.
    I would like to introduce our witnesses today. We have only 
one panel, Chief Dale Bosworth, in the middle, accompanied by 
Ms. Sally Collins, Associate Chief, USDA Forest Service and Mr. 
Hank Kashdan, Director of Program and Budget Analysis from the 
Forest Service.
    Since we only have one panel, you are not limited to 5 
minutes. I will limit the members to 5 minutes in their 
questions. I will rotate. They can have as many 5 minutes as 
they want, but only five at a time so everybody gets a chance. 
So, without any further adieu, we welcome the panel and please 
proceed. Make sure you are close to the mikes.
    Mr. Otter. Mr. Chairman, I would only observe that there 
are as many members here, we could both have the 5-minute limit 
taken off.
    Mr. Peterson. We will reserve the decision on that.

    STATEMENT OF DALE BOSWORTH, CHIEF, USDA FOREST SERVICE; 
  ACCOMPANIED BY SALLY COLLINS, ASSOCIATE CHIEF, USDA FOREST 
 SERVICE; HANK KASHDAN, DIRECTOR, PROGRAM AND BUDGET ANALYSIS, 
 USDA FOREST SERVICE AND ROBERT LEWIS, DEPUTY CHIEF, RESEARCH 
                        AND DEVELOPMENT

    Mr. Bosworth. Well, Mr. Chairman and members of the 
Subcommittee, I do appreciate the opportunity to be here today 
to talk about the President's Fiscal Year 2003 budget for the 
Forest Service. As you said, I am accompanied here today by 
Forest Service Associate Chief, Sally Collins, and Hank 
Kashdan, who is the Director for our Program and Budget 
Analysis Staff.
    As I said, it is a privilege to be here. There is a lot 
going on in the Forest Service and I am really anxious to 
answer your questions. But there are a few things I would like 
to say first. I do want to start off by saying that just a 
couple of weeks ago I had the pleasure of going to Utah and 
visiting Utah during the winter Olympics in Salt Lake City and 
the surrounding area.
    There were two Olympic winter games that were signature 
events that were held on National Forest land, the Downhill and 
the Super `G'. They were held at the Snow Basin ski resort 
which is located on the Ogden Ranger District of the Wasatch-
Cache National Forest. The Forest Service's main goal for the 
2002 Olympic Winter Games was to help ensure that Olympic-
related activities on the National Forests were safe and 
environmentally responsible.
    There were a lot of dedicated Forest Service employees 
there, cooperators as well as Forest Service employees and 
volunteers that worked really, really to make sure that those 
goals were met. I am happy to report to the Subcommittee that 
those goals were and we were part of a very successful event. 
So, I am very proud of the work that the Forest Service people 
contributed to that.
    What I would like to do is just briefly summarize the 
testimony and then submit the full testimony for the record. 
The Fiscal Year 2003 President's budget request for the Forest 
Service is almost $4.9 billion. Now, with this level of 
funding, we are going to be emphasizing protecting the public, 
employees, property, and resources. We are going to be 
providing benefits to employees. We are improving forest and 
rangeland health and we are going to be meeting the growing 
recreation demands for goods and services and other kinds of 
amenities by the public.
    One of the things I am going to be putting a lot of focus 
on and a lot of folks in my agency are going to be putting a 
lot of focus on has to do with the process gridlock that we are 
engaged in. I want to focus a lot of attention on 
reestablishing a bias in favor of accomplishing the work of the 
Forest Service, which is work to be done on the ground.
    The process paralysis, the analysis paralysis is directly 
affecting our ability to protect communities from catastrophic 
wild fires. It is affecting us in terms of providing 
communities with a sustainable flow of forest products. It 
affects us in terms of putting employees in the field on the 
ground where they really need to be.
    We are going to be concentrating on the restoration of 
ecosystems to fire-adapted conditions. We need your support, 
and we appreciate your support in the funding of the National 
Fire Plan in the past. We are going to continue a focus, a 
primary focus on reducing the number of communities that are at 
extreme risk from wildland fire. Hazardous fuels reduction is 
the critical component of the National Fire Plan, in my 
judgment.
    It is going to require a sustained effort over a number of 
years in order to work around these communities in order to 
reduce the fuels hazards and the potential for disastrous fires 
around the communities. We are going to be doing that and we 
have been doing that in cooperation with the Department of 
Interior and other parties, including the States.
    There are just a few things I want to rattle off since in 
your opening remarks you talked about our cooperation with the 
Department of Interior. We are working together to achieve the 
goals of the Department of Interior for the National Fire Plan. 
We have created a National Fire Plan. Coordinating teams are 
providing leadership in different areas of implementing the 
plan.
    We developed a 10-year comprehensive strategy. We are 
completing the implementation plan. We identified communities 
at risk. We have been finalizing the Inter-Agriculture cohesive 
strategy. We are developing complimentary budget requests. We 
will develop a new planning analysis process and we will invest 
in applied research. We will collaborate with the States and 
other partners. These are the things that we have been doing 
with the Department of Interior.
    The Forest Service plays a key role in maintaining benefits 
to communities. The type of opportunities that we are going to 
be engaged in will be based on the local needs, on what local 
people feel and local interests, while we remain consistent 
with the agency's mission and priorities.
    I want to say something about invasive species because in 
the coming months I intend to focus more on invasive species 
and the invasive species problems. It is going to be an 
important and major part of the agency's future efforts. I 
think that there is a huge amount of ecological and economic 
impact from invasive species and I believe in the future we are 
going to have to pay a whole lot more attention to that.
    So, in my agency I want to put more focus on that in the 
future. This pretty much concludes my opening remarks. I would 
be happy to take any questions that you might have.
    Thank you.

 Statement of Dale Bosworth, Chief, Forest Service, U.S. Department of 
                              Agriculture

    Chairman McInnis and members of the Subcommittee, thank you for the 
opportunity to discuss the President's Fiscal Year 2003 Budget for the 
Forest Service. I am accompanied by Forest Service Associate Chief 
Sally Collins and Director of Program and Budget Analysis Hank Kashdan. 
It is a great privilege to be here today.
    In my first year as Chief, I am encouraged by the level of interest 
in management of the Nation's forests and rangelands shared by so many, 
as well as this Subcommittee. I have deepened my appreciation for the 
job being performed on the ground by our employees, as well as for the 
many individuals and groups that actively engage in the agency's work. 
Although I have worked on many wildland fires during my 36-year career, 
I appear before you today with a renewed appreciation of what it means 
to be on the ``hot seat.''
Overview
    In my brief testimony today, I would like to discuss how the Fiscal 
Year 2003 President's Budget will allow Forest Service programs to make 
tangible contributions towards sustainable resource management and 
discuss some of the significant issues on which we look forward to 
working with the Subcommittee and the Congress over the next few 
months.
    The Fiscal Year 2003 President's Budget request for the Forest 
Service for all appropriations totals almost $4.9 billion. Along with 
the Administration's emphasis on efficiency and streamlining, the 
budget underscores the Forest Service as a science-based organization 
by placing emphasis on: (1) protecting the public, employees, property, 
and resources; (2) providing benefits to communities; (3) improving 
forest and rangeland health; and (4) meeting the growing recreation 
demands for goods, services, and amenities by the public. To ensure 
that the public gets the most value for its tax dollars, the Forest 
Service will become more efficient and streamline to increase funding 
at the field level; continue to improve agency accountability; and 
address the issue of ``gridlock'' that is preventing the prompt 
execution of projects on the ground. The Budget includes full funding 
of the Land and Water Conservation Fund (LWCF) and reflects increases 
related to the National Energy Policy, and continues the Administration 
``s commitment to the National Fire Plan.
Public and Employee Safety
    Before focusing on any specific program areas, I want to emphasize 
that the safety of agency employees and the public is one of the 
highest priorities for the Forest Service. In particular, the agency 
must take all action possible to prevent tragedies such as the 
Thirtymile incident last summer where four firefighters died. The 
Forest Service will ensure that proposed changes in management, 
policies, training, and operations are made to improve safety for the 
public and all employees, especially with respect to firefighter 
safety. The agency must also work to reduce risks to life, property, 
and ecosystems from high-intensity wildland fires within and adjacent 
to communities.
Gridlock and Analysis Paralysis
    Under Secretary Rey and I intend to focus a great deal of attention 
on reestablishing a bias for accomplishing the work of the agency. What 
is commonly referred to as ``gridlock'' or ``analysis paralysis'' is 
directly affecting the ability of the agency to protect communities 
from catastrophic wildfire, provide communities a sustainable flow of 
forest products, and directly serve the public that uses and enjoys 
national forest lands.
    The National Academy of Public Administrators reported two years 
ago that up to 40 percent of the work done on National Forests goes 
into the planning and analysis process. In addition, indirect expenses 
take an additional share of the budget (around 20%). Too little value 
is returned to the public. To move beyond gridlock, our approach is to 
rely on local knowledge and local participation as tools to achieve 
national goals; we will focus on local solutions to national issues. 
Local groups can help the agency find common ground to restore forest 
and ecosystem health. Conversely, this commitment to local decision-
making cannot cloud our need to employ rigorous standards and 
consistent processes that assure financial integrity is paramount. I 
want to confirm that the renewed emphasis on local decision-making will 
not impede the reforms necessary for assuring public trust to ensure in 
the fiscal integrity or scientific reliability of the agency.
    The President's Budget and USDA's efforts reflect a tangible first 
step in reducing the gridlock associated with much of natural resource 
management today. It includes continuation of stewardship contracting, 
expedited consultations for endangered species, and the legislative 
proposals I will touch on shortly. I renew my offer to work with you to 
find a way to make Forest Service land management decisions in an 
effective, efficient, and timely manner.
National Fire Plan -- Protecting Property and Resources
    The agency will concentrate on the restoration of ecosystems to 
fire adapted conditions and reducing the risk of wildfire to rural 
communities. Rural residents and communities will be equipped with a 
variety of tools to reduce the likelihood of loss from wildland fire. 
The primary focus will be on reducing the number of communities at 
extreme risk of loss from wildland fire and increasing the proportion 
of forestland restored to conditions where fire regimes are within a 
historical range. This effort will be accomplished in cooperation with 
the Department of the Interior (DOI), state and local agencies, tribal 
governments, academia, and other partners and concentrate on restoring 
ecosystems to fire-tolerant conditions and protecting communities.
    The Forest Service Preparedness Program, in cooperation with DOI's 
program and those of state agencies and local volunteer fire 
departments, will provide the resources and planning needed to protect 
communities and ecosystems from wildland fire. The Hazardous Fuel 
Program, in conjunction with DOI's program, will collaborate with State 
and local communities, tribal governments, and other partners to focus 
treatments in areas of greatest need of community protection and 
ecosystem restoration. The Fiscal Year 2003 Budget requests $235 
million for the Hazardous Fuels program, an increase in the program of 
about $26 million. Seventy percent of these funds are targeted for the 
wildland-urban interface. Funding for rehabilitation and restoration, 
along with Burned Area Emergency, will protect communities and 
watersheds from post-fire damage, and help burned areas recover from 
fire damage. The Forest Service Research and Development Staff, along 
with the DOI-Forest Service Joint Fire Science Program, are focusing 
efforts on fuels reduction opportunities, including: (1) prioritizing 
areas for treatment; (2) determining impacts of treatments on wildlife, 
fish, and riparian areas; and (3) developing new uses for forest 
undergrowth and small diameter trees. The Budget provides resources to 
State and local communities to establish a truly comprehensive wildland 
fire management policy across all ownership boundaries. It provides the 
resources to increase the firefighting capability and planning of State 
and local fire agencies, and to reduce hazardous fuel on non-Federal 
land. Finally, the fireplain easements program will enable the Forest 
Service to work with States to identify alternatives in areas where 
potential fire suppression expenditures exceed the estimated value of 
private property.
    The USDA Forest Service and the Department of the Interior are in 
the second year of implementing the National Fire Plan. Significant 
headway was made in Fiscal Year 2001 and continues in Fiscal Year 2002 
to enhance tracking and reporting mechanisms to provide accountability 
as accomplishments are made in firefighting, rehabilitation and 
restoration, hazardous fuels reduction, community assistance and 
research.
    Together with the Department of the Interior, the President's 
Budget requests over $2.1 billion for National Fire Plan programs to 
protect communities from wildland fire and restore fire adapted 
ecosystems.
Benefits to Communities
    The Forest Service plays a key role in developing and maintaining 
benefits to communities by providing natural resource-based 
opportunities within desired sustainable levels for a variety of uses, 
values, products, and services. The type of opportunities the agency 
will engage in will be based on local needs and interests while 
remaining consistent with the agency's mission and priorities. This can 
include revitalizing and maintaining local economies through promoting 
partnerships in recreation and tourism; increased and sustainable 
availability of a variety of forest products and increased local 
contracting opportunities in implementing forest management projects; 
reducing risks to communities from severe wildland fires through 
hazardous fuel reduction and fire prevention activities and education; 
and providing a transportation system that facilitates local travel.
    The Fiscal Year 2003 Budget provides an increase of $10 million 
within the Forest Stewardship program to foster enhanced management and 
use of small diameter and underutilized wood biomass on private lands. 
Funds are also included for research on the use of small diameter trees 
for biobased products and bioenergy.
Forest and Rangeland Health
    Keeping watersheds in good condition and restoring them where 
necessary are fundamental to the stewardship of the land and natural 
resources. The agency will focus efforts and move ahead on watershed 
restoration consistent with the agency's national goal to improve and 
protect watershed conditions to provide the water quality and quantity 
necessary to support ecological functions and beneficial water uses.
    Invasive insects, diseases and plants threaten the integrity and 
viability of forest and rangeland ecosystems and cause billions of 
dollars of damage annually from losses due to tree mortality, impaired 
rangeland conditions, and increased susceptibility to high-intensity 
wildland fires. The Forest Service will work to protect the Nation's 
rural and urban forests and grasslands from invasive insect, pathogen 
and plant species in active partnership with Federal and State 
agencies, Tribal governments, and municipal and nonprofit 
organizations. The President's Budget requests over $83.6 million to do 
so. The Budget also includes funding for cooperative work with States 
and communities to enhance and protect the Nation's urban forest 
resources as well as protect and conserve environmentally important 
forests threatened by conversion to non-forest uses.
    In each of these areas, research is the key to sustaining our 
forest and rangeland productivity and health while addressing natural 
resource needs.
    The Budget also includes $15 million to transfer to the Fish and 
Wildlife Service (FWS) and the National Marine Fisheries Service (NMFS) 
to help expedite Endangered Species Act (ESA) Section 7 consultation. 
The $15 million is roughly enough to have one FWS or NMFS person per 
forest available to respond to ongoing agency projects. This will 
promote both available personnel to review project proposals under ESA 
Section 7, as well as ensure increased familiarity and understanding on 
the part of the FWS and NMFS staff as a consequence of their continuing 
involvement with USDA projects.
Recreation
    I was honored to represent the Forest Service recently at the 
Winter Olympics in Salt Lake City. Two Olympic Winter Games signature 
events'the downhill and super G'took place at the Snowbasin Ski Resort, 
which is located on the Ogden Ranger District of the Wasatch-Cache 
National Forest. The USDA Forest Service's main goal for the 2002 
Olympic Winter Games was to help ensure that Olympic-related activities 
on the National Forests were safe and environmentally responsible. Due 
to the dedication of many Forest Service employees, cooperators, and 
visitors, I am pleased to inform the Subcommittee that this goal was 
achieved.
    Recreation is the fastest growing use on the national forests and 
grasslands and how most Americans come into contact with the Forest 
Service. The agency's recreation framework is being implemented through 
five primary activities: (1) operating developed sites; (2) managing 
general forest areas; (3) protecting cultural resources and wilderness; 
(4) providing interpretation and education; and (5) administering 
recreation special use authorizations. The agency will focus on a 
measurable improvement in customer satisfaction and an increase in 
documented contributions to community economies, primarily through 
strategic business delivery partnerships. The Budget calls for $264 
million for recreation in Fiscal Year 2003.
    The Forest Service is operating the Recreation Fee Demonstration 
Program to test the collection, retention, and reinvestment of new 
recreation admission and user fees. Proposed legislation would make 
permanent the current demonstration program and would authorize the 
Forest Service to retain and use recreation fees collected under the 
program.
Funds to the Ground--Accomplishing the Work of the Forest Service
    President Bush has called for a government that focuses on 
priorities and does them well. The President's Management Agenda 
contains five government-wide and nine Forest Service-specific goals to 
improve federal management and deliver results that matter to the 
American people.
    The Forest Service fully embraces the goals of the President's 
Management Agenda. The agency is committed to increasing available 
funds at the field level, shrinking non-discretionary cost centers at 
all levels of the organization, and reinstituting a firm bias for 
accomplishing the on-the-ground work of the Forest Service. To this 
end, the agency: (1) has established targets for increased contracting 
in key on-the-ground program areas; (2) is finalizing a workforce 
restructuring plan that will reduce and realign headquarters and 
regional personnel to increase resources at field locations; (3) has 
completed an exhaustive review of the headquarters budget; and (4) 
established Fiscal Year 2005 targets to reduce indirect expenses by 
one-half its Fiscal Year 2002 level (to approximately 10% of total). 
This will increase funds available for challenge cost-share from 2% to 
5% of the operating program. In order to maximize fund availability at 
the field level, the Forest Service has implemented firm funding 
ceilings for the Washington Office, and intends to reduce overall 
Washington Office funding to no more than 7.6 percent of the total 
agency budget by the end of Fiscal Year 2003. Additionally, firm 
principles for management of the agency budget have been established 
that eliminate the ``national commitments'' method of holding funds off 
the top for later reallocation.
Accountability
    The Forest Service recognizes it cannot provide credible natural 
resource management without effective financial and performance 
management. The agency continues its emphasis on improving the quality 
of its financial systems and performance reporting processes. A key 
aspect of improved performance accountability involves providing field 
units with the opportunity to influence the budgets they receive. The 
Forest Service formulated input to the Fiscal Year 2003 President's 
Budget using a new budget formulation process that provided local units 
the opportunity to develop budget requests at the local level.
    The Forest Service has operated a fully compliant financial system 
for more than two years, and continues to implement actions that 
improve financial accountability. The Department is working closely 
with the Forest Service to promote agency efforts to provide high 
quality accounting information. In addition, the Department of 
Agriculture and the Forest Service continue to move forward in efforts 
to obtain a ``clean audit opinion.'' Essential to this goal are 
effective cash reconciliation and property management programs. The 
Forest Service has improved the agency's accountability by directly 
linking the accuracy of accounting records to reconciliation processes 
and by committing an agency-wide team effort to ensure property records 
are adequate to document the approximately $4 billion inventory of 
assets. I have also ordered the formation of six ``strike teams'' that 
will further develop or modify financial policies and procedures.
Legislative Proposals
    Several legislative proposals of the Administration will include 
making the Recreation Fee Demonstration Program permanent; revising fee 
schedules for ski resorts; increasing competitive bidding on timber 
sales; and ``charter forests,'' which will take innovative approaches 
to natural resources management. I look forward to working with the 
Congress to develop these proposals on a bipartisan basis.
Conclusion
    In conclusion, Mr. Chairman, the President's Fiscal Year 2003 
Budget demonstrates the commitment of the Forest Service to 
accountability through results. The Budget includes funding priorities 
for the National Fire Plan and wildland fire management; research as 
the basis of scientifically sound resource decision-making; forest 
health; land acquisition; recreation; and minerals management, 
especially projects related to the National Energy Policy. The 
President's Management Agenda and Forest Service initiatives will 
examine opportunities for restructuring the Forest Service by reducing 
personnel at the national and regional level and redirecting them to 
the forest level. In addition, financial initiatives will focus on 
reducing indirect costs and streamlining accounting practices to reduce 
expenditures. Competitive outsourcing of commercial activities will 
continue to increase.
    This concludes my testimony. I would be happy to answer any 
questions that you may have.
                                 ______
                                 
    Mr. Peterson. In your testimony you spoke of the process 
gridlock. When will the Forest Service report on National 
Forest Planning and Decision Making be available?
    Mr. Bosworth. We are currently completing the report. It is 
in the final stages. Basically, what we are doing right now is 
just getting internal reviews to make sure that we have all the 
ideas in the report.
    What we are really looking at right at this point is trying 
to explain what the situation is and what the problem is. We 
are not looking, in this particular report, to come up with a 
whole lot of recommendations for solutions because I would like 
to see first if we have a common agreement on what the problem 
is because I fear running around looking for solutions to 
problems that we don't agree are there.
    So, the report that we are about ready to complete will 
identify the problem in the best way that we can and then I 
think that will set the stage for recommendations for 
solutions.
    Mr. Peterson. So you want to first have a debate about what 
the problem is?
    Mr. Bosworth. Yes. I am hoping it is not going to be too 
debatable. Frankly, the problems seem to me to be pretty 
obvious. But I'm sure that there won't be common agreement. But 
I do think that it is worth looking at the problem and making 
sure that there is some consistency in terms of what the 
problem is that we are trying to solve and if we really have a 
problem. I believe we have a problem and I want to make sure 
that I communicate that well with Members of Congress and see 
if we can't get some kind of common view of what the problem is 
before we start talking about solutions to it.
    Mr. Peterson. OK. The Departments of Interior and 
Agriculture have been working on a proposal for some time to 
create an Inter-agency National Fire Council which would be 
charged with bringing direly needed coordination and uniformity 
to the national fire plan. What is the status of this proposal 
within the administration?
    Mr. Bosworth. We have a charter that we have been working 
with the Department of Interior on to establish an Inter-agency 
Leadership Council that would have the heads of the agencies, 
the five wildland firefighting agencies. They would be members 
of that leadership council. That charter is currently in the 
Department of Interior being reviewed for final agreement.
    Mr. Peterson. When do you think?
    Mr. Bosworth. My hope is soon. My hope is in the next few 
weeks. I have not heard back from the Department of Interior to 
see if they have any major concerns with it. I think it is just 
a matter of time and we will have that charter approved by both 
departments.
    Mr. Peterson. Well, my experience with State government, 
and the Federal is worse, is that time doesn't seem to matter 
with a lot of agencies. You really have to put the stick to 
them.
    Mr. Bosworth. This is very important to us. It is very high 
priority, so we will be doing whatever we can to make sure that 
we have the agreement.
    Mr. Peterson. Well, I will reiterate here the words of the 
Chairman, not speaking for myself but for the Chairman, that if 
it isn't forthcoming he is going to start the legislative 
process to move in that direction. So, I think a word to the 
wise is sufficient.
    What are the impacts to your agency on OMB holding back 
$280 million?
    Mr. Bosworth. Well, there are $280 million that I requested 
in a letter to the Secretary that the $280 million was 
appropriated last year. It was appropriated as emergency 
funding to be released. I think in my request I actually 
requested $346 million to be released.
    The Department forwarded on a request of $280 million. 
About $200 million of that thereabouts was to pay back some of 
the money that we spent last year during the fire season. The 
other $80 million had to do with circumstances for this fiscal 
year.
    There are some consequences to not having the $280 million. 
Probably one of the more important ones would be our ability to 
be at a fire readiness that would be consistent or close to 
consistent with last year. Of course, as time goes on, this is 
the time of year when we let contracts for helicopters and for 
tankers and where we hire firefighters and whatnot.
    So, as time goes on it will be more difficult to meet the 
readiness level that we need to meet.
    Mr. Peterson. So, you are not cutting other programs. It is 
going to affect readiness?
    Mr. Bosworth. At that time is one of the things, but some 
of the dollars would have paid back the money that we borrowed 
last year basically to do the first suppression. Last year and 
every year, just about every year, by the time we end up, if 
there is any big fire season at all, we end up spending the 
fire suppression dollars.
    So, in the past we used to look at our trust funds like our 
KV and our salvage sale funds to borrow from that. Those funds 
no longer have much money in them, so now, last year, we had to 
look other places to get the money, so we stopped contracts 
that were large contracts about to be let. They hadn't been let 
yet. So we would have the money and not become deficit and be 
anti-deficient.
    So, some of those dollars were to pay back those programs 
that you in the Congress had given us the dollars to do. So, it 
is important to us to be able to do the programs that you 
allocate the dollars for. Some of those wouldn't get done.
    Mr. Peterson. Thank you. My 5 minutes having expired, I now 
call on the ranking member for his questions.
    Mr. Inslee. Thanks, Mr. Chairman.
    Chief, would you agree with my assessment that erosion 
causing siltation from our road system that you and I are 
responsible for is a major cause of potential extinction of 
several salmon runs, for instance, in the State of Washington? 
Is that a fair assessment?
    Mr. Bosworth. Well, I don't know that I could characterize 
it quite like that. I probably would need to talk to some of 
our fisheries scientists to be real confident in the way that I 
would answer that. But let me say that I do think that 
siltation, sediment from roads is an important factor in terms 
of survivability of fish.
    There are a lot of factors that affect whether or not 
salmon and steelhead are going to persist--dams, hatcheries, 
and harvest. So habitat and siltation are each one of those 
things, but I don't know that I would say it is even more so 
than dams.
    Mr. Inslee. Right. It depends on which watershed we are 
talking about, obviously, too.
    Mr. Bosworth. That is correct.
    Mr. Inslee. Let me state my assessment. The more I get into 
this subject, this becomes a bigger and bigger problem. That is 
just one Congressman's assessment. I will tell you that looking 
at it from the State of Washington.
    I just wondered, what do you think should be our 
prioritization of your dollars regarding roads in that regard? 
For instance this year I think there is $240 million attributed 
to new road building, maintenance and decommissioning. How is 
that split up between new road building, maintenance and 
decommissioning and how would you propose we think about that 
issue?
    Mr. Bosworth. The $241 million is the total. At this point 
I can't tell you specifically how much is for construction, 
reconstruction and maintenance. I can tell you, though, that 
the amount of miles of new construction, planned new road 
construction is very, very small. It is not non-existent, but 
it is very close to non-existent.
    Most of the dollars will be for reconstruction and 
maintenance. But I can get the figures for you, break them down 
and be more specific. Now, maintenance and reconstruction are 
often very important for doing the things we are both talking 
about in terms of reducing sediment from existing roads.
    I would agree with you that it doesn't make sense to build 
a whole lot of new roads if we can't take care of the roads 
that we have. The most important thing that we can do right now 
is taking care of the roads we have.
    There may be some places and some situations that would be 
an exception to that, but by and large we need to be focusing 
on a lot of the existing roads, reconstruction and maintenance.
    Mr. Inslee. Could you provide us with that information as 
far as the number of miles involved? That would be helpful, I 
think.
    Mr. Bosworth. Yes.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 78152.001
    
    Mr. Inslee. How would you characterize how far off we are 
from meeting what should be our goal, for instance, of 
maintenance and decommissioning? Now, the numbers I threw at 
you in my opening statement which suggest we are off by factors 
of ten of where we should be as far as pace of decommissioning, 
where it looks to me like our entire national budget to do the 
job would only do the job in one area of Hood Canal. Is that a 
fair assessment of how far we are away from where we should be 
on taking care of these roads?
    Mr. Bosworth. Well, I don't have a number across the 
country of miles of roads that we would believe need to be 
decommissioned. We probably don't even know that at this point 
because that comes from watershed analysis, ecosystem analysis, 
the watershed scale and other kinds of analyses that we will 
do.
    But I can say that there is a lot more miles out there that 
we would want to decommission than what we have the dollars to 
complete. We are limited. We have a $15 million cap that we are 
limited to.
    Mr. Inslee. I am sorry, that cap is what?
    Mr. Bosworth. The cap is $15 million.
    Mr. Inslee. For decommissioning?
    Mr. Bosworth. For decommissioning?
    Mr. Inslee. And that cap is set in what forum?
    Mr. Bosworth. That was set in the Appropriations bill.
    Mr. Inslee. In the last Appropriations bill?
    Mr. Bosworth. That's correct.
    Mr. Inslee. Does that make any sense, to have a cap like 
that, when you have this, at least in my perception, this level 
of damage that we are doing, where the Federal Government could 
be considered one of, if not the, largest polluters in our 
entire watersheds in the country.
    Does it make any sense to have a cap like that on 
decommissioning?
    Mr. Bosworth. I guess I would say that a cap, probably, an 
arbitrary cap probably doesn't make a lot of sense. But on the 
other hand, I am not sure that we would have the wherewithal to 
add more dollars to it. I mean if Congress decides that is 
where you want to spend the dollars, that is your choice.
    I guess my opinion is when you look at the overall programs 
that we have to deal with--we talk about fire, about fuels 
reduction and some of those things, you know--there are a lot 
of different places you can put those dollars.
    What I would like to do is, I would like for us in the 
Forest Service to become more efficient with the dollars that 
we have. I mentioned the analysis paralysis for process 
gridlock a minute ago. When I am talking about trying to deal 
with the process gridlock, I am talking about how we spend 
dollars on the ground to do things like road decommissioning, 
how we are doing things like thinning from below for fire-
adapted ecosystems around communities; how we are working in 
replacing culverts so that fish can pass through those.
    There are people who get the idea that process gridlock 
only applies to something that they don't want to have happen. 
But it also applies to a lot of the things that a lot of folks 
do want to have happen, which is doing some watershed 
restoration and putting these ecosystems into better condition.
    When we spend 60 or 70 percent of the dollars pushing paper 
and process stuff, it is dollars that are not getting to the 
ground to decommission roads.
    Mr. Inslee. Thank you.
    Mr. Peterson. Before I call the next witness, I will just 
share my thoughts on the condition of the roads. For a decade, 
the first priority was to buy more land, not to maintain what 
we have. I think the lack of a maintenance budget will plague 
your department and all departments until we put in the 
adequate amount; because if we don't maintain a road you are 
going to have siltation and some maintenance of our existing 
system.
    Although I am sure there are roads, and I support some 
roads being done away with, but, you know, an unsurfaced road, 
nature will decommission it naturally. Trees will grow in it 
and pretty soon there is a root base there and it will 
decommission itself. So, in my view, I think we have to 
concentrate more on maintaining what we because you know most 
of our people, especially our middle-aged and up, can't enjoy 
the forest if there is not some kind of a road to get there.
    That is my view. So, Mr. Otter, you are on.
    Mr. Bosworth. May I respond to that first, please?
    Mr. Peterson. Sure.
    Mr. Bosworth. While I agree that many of these roads that 
aren't used end up with trees growing in them, we lost some 
experience in a lot of parts of the country, and I am familiar 
with Northern Idaho and Montana, most recently where we had 
roads that did have trees that grew up through them. They were 
not being used by anybody, but they were still part of the 
system. Some of those roads are blowing out because we had 
never pulled out the drainage.
    So that is part of the cost in decommissioning. Even though 
the roads may not be used now, the roads that most people would 
agree they don't plan on using and they don't want to use, but 
they have a potential for delivery of sediment in some of the 
streams.
    Mr. Peterson. Mr. Otter.
    Mr. Otter. Chief Bosworth, we heard some statements made 
that the Forest Service was probably the largest polluter of 
our salmon habitat and salmon spawning beds. You didn't agree 
or disagree with that. I would like to know where you stand on 
that?
    Mr. Bosworth. Well, I don't agree that we are the largest 
polluter of the waters.
    Mr. Otter. Who is?
    Mr. Bosworth. There are a lot of different lands that make 
up the watershed. There are private lands. There are State 
lands and there are National Forest lands. My belief is, and I 
can't sit here--maybe we have some studies I can talk to my 
research folks about. My belief is that some of the cleanest 
water in the United States comes off National Forest System 
lands.
    I have seen that in all the parts of the country where I 
have worked. It will get downstream and when you get downstream 
you get into more of the urban areas and some of the areas 
where there is agriculture taking place, where there are more 
roads than what there is even on the National Forests.
    So, while we do deliver some sediment to the streams and 
whenever you do have roads, that is going to be one source of 
sediment, I don't believe that the waters coming off the 
National Forest are the greatest polluter. I think they are 
probably the cleanest waters we have in the country.
    Mr. Otter. Let me give you a judgment call here. We burned 
880,000 acres of watershed in Idaho during the 2000 fire 
season. Do you suppose that is degrading the watershed or any 
of the streams to the extent in excess of the roads that are 
there?
    Mr. Bosworth. There is a huge amount of sediment. We have 
the figures on the forests like the Salmon-Challis Forest and 
the Bitterroot Forest where our watershed restoration folks 
went in and looked at after the fires. There are huge amounts 
of sediment that were being delivered those first few years 
after the fires, the first 2 years. There will continue to be, 
for another two or 3 years, large quantities of sediment.
    There was also, in 2001, a rainstorm that came through 
parts of the Salmon-Challis and through the Bitterroot. It put 
down less than an inch of rain, but every drainage that it went 
over it blew out the streams and they ended up with mud down at 
the bottom of the hill and around some of the homes where 
people had survived the fires the year before and they ended up 
with mud in their places.
    Mr. Otter. What is the assessment process that you go 
through to identify a road for potential decommissioning?
    Mr. Bosworth. Usually we do what we refer to as a watershed 
assessment or an ecosystem assessment at the watershed scale. 
We also have what we call a road analysis process that looks at 
either a watershed or the forest as a whole and looks at what 
roads we need, what roads we don't. We work with the public. I 
mean it is not something that we just do all by ourselves. We 
find out whether or not the roads that we have in place are 
still the ones that we want to have in the future and are they 
in the condition that we want to have then and whether or not 
there needs to be some reconstruction or decommissioning on 
some of those roads.
    Mr. Otter. In that scoping process, Chief, do you include 
handicapped access?
    Mr. Bosworth. That is a factor that is involved in the 
decisions. We want to make sure that all persons have access to 
National Forests.
    Mr. Otter. So, senior citizens, too, then.
    Mr. Bosworth. Yes. But that doesn't mean that every partner 
has access to every acre of the National Forests. We want to 
make sure that we are providing a wide array of opportunities 
for people to get to the National Forests, whether they are 
wheelchair bound, whether they are old. But again, we wouldn't 
want to say that every acre would be accessible by every 
individual. There are differences.
    For example, wildernesses have some different levels of 
ability required to access wildernesses. But we do, when we are 
doing our analysis, our road analysis process, we do look at 
the different kinds of needs that people have to get to the 
National Forests.
    Mr. Otter. Let me give you another judgment call. If I 
happen to be a healthy 60-year old robust fellow who rides 
horses an awful lot, and I can ride a long way, do I have the 
same access? I mean, would a person who was, let's say, 
handicapped in some way that cannot ride a horse, would they be 
able to enjoy that same area of the forest as myself.
    Mr. Bosworth. There are places on the National Forest 
System both in wilderness as well as some places outside of 
wilderness where your ability to hike or ride horses would 
allow you to get there.
    Mr. Otter. So we would be denying, then, these other 
people?
    Mr. Bosworth. There are some places in the National Forests 
where folks would not be able to get there.
    Mr. Otter. So, they would not be able the see the salmon 
spawning beds in their natural habitat.
    Mr. Bosworth. There would be some salmon spawning beds 
where they would be able to access out and be able to see it.
    Mr. Otter. So, we would have two classes of citizens.
    Mr. Bosworth. Well, again, every acre, you go back to 
wilderness. Wilderness is areas where not everybody is going to 
be able to hike up into all the wilderness areas. Yet, there 
are many places on the National Forest System that have 
stunning vistas and beautiful landscapes that lots and lots of 
people can get to by passenger car. Some will take four-wheel 
drive. Some take a horse or an ATV and some that require 
hiking. So, we try to have a wide array of recreational 
opportunities for the visitors to the national forests where 
people have opportunities to see a wide array of things.
    Mr. Otter. Thank you, Chief.
    Mr. Peterson. The gentleman from New Mexico is recognized.
    Mr. Udall of New Mexico. Thank you, Mr. Chairman.
    Chief Bosworth, it is good to have you here today. Let me 
start with--in your written testimony you talk about 
legislative proposals and you talk about Charter Forests which 
is a possible legislative proposal which would take innovative 
approaches to natural resources management. There isn't much in 
your budget proposal nor in your statement about Charter 
Forests.
    I am wondering if you could flesh that out a little bit and 
give me an idea where you are headed and how we would get to a 
legislative point. Are you going to serve us up with a draft 
proposal of what you are looking at? Are you interested in 
looking at what we produced? Go ahead.
    Mr. Bosworth. Well, first, Charter Forests is sort of a 
concept that would allow for experimenting in different ways to 
see whether or not we can become more effective in managing 
National Forests. So, it would be like having an experimental 
forest where we could try to see if there are some ways that we 
can streamline some of the processes, whether or not we could 
work better with a collaborative group to achieve on the ground 
activities.
    There are a number of examples out there that you could 
sort of think about, the Valles Caldera Trust, the Baca Ranch 
in New Mexico. It is managed by a trust, but it is National 
Forest System land and it could be an example of some approach 
that we might want to look at. The Presidio Trust is another 
one in San Francisco that is a concept that may feed into 
something like this.
    Mr. Udall of New Mexico. Where did the term ``Charter 
Forests'' come from because I am from, because I am familiar 
with both of those proposals and in concept I am very 
supportive of the idea that you are talking about, of working 
in a collaborative way to resolve local problems. But where did 
the term ``Charter Forest'' come from and what is it?
    Mr. Bosworth. I believe that the term ``Charter Forest'' 
came from the Charter Schools approach that the administration 
has proposed to look at different individual schools and see 
whether or not there are different ways of--it is sort of the 
same concept, only with forests.
    We are really looking for ideas. We are looking for ideas 
that would fit in with the concept and then we would see if we 
could put together some legislation and work with you folks to 
see whether or not there is something that we can make out of 
this that would help us to become more effective.
    Mr. Udall of New Mexico. Do you think you might come up 
with a draft for legislation some time soon on this?
    Mr. Bosworth. It would be our intention to have some 
legislation that we would propose in the near future, but I 
can't give you a timeframe on how quickly that would be because 
I really need to find out where the ideas are coming from, how 
many ideas are out there. We are getting a lot of comments from 
folks right now that are saying, ``I would like to be a Charter 
Forest.''
    We are saying, ``Well, what are the ideas that would be 
associated with that that we might build from?''
    So, we will be putting together some proposed legislation.
    Mr. Udall of New Mexico. In looking at the Valles Caldera 
Preserve, which is one of the ones that you mentioned, I think 
that is a good example of the Forest Service land being used in 
a way with a trustee board to work through a lot of the 
resource issues we have such a difficult time with in the west, 
whether it is grazing or hunting or recreational use or 
fishing.
    This trustee group which is citizens and Presidential 
appointees and others are trying to come to grips with all of 
those issues on the use and trying to balance a good ecological 
system and a healthy ecological system with all of the demands 
that are out there for this 95,000 acre ranch.
    I would be very interested in seeing what your proposals 
are and work with you also on what has happened in New Mexico 
because I think they are making some progress at the local 
level on many of these important issues. I am not so sure if it 
was managed the other way around, that you had to manage it out 
of Washington, not because you don't have good managers; it is 
just because I think you have so many acres of land, you know, 
hundreds of millions of acres of land, that it is hard to get 
down to the details and the specifics and understand the 
community.
    Mr. Bosworth. I am interested in looking at any ideas that 
will help bring people together and help people to try to find 
solutions to some of these problems and particularly local 
solutions to some of these national issues. Charter Forests may 
be one way of doing that. There is a possibility of hearings 
being held. I would hope that there will be hearings held 
before there is proposed legislation.
    I think it would really be worthwhile to have multiple 
panels with multiple interests and ideas in hearings and try to 
bring some of these ideas out and see where they would go. So, 
I would be really happy to participate in any hearings.
    Mr. Udall of New Mexico. So you would support some kind of 
hearing to flesh this out a little bit and try to get people to 
come up and give you ideas? I think that is good. My time has 
run out. Thank you very much. I appreciate your comments.
    Mr. Peterson. The gentleman from Idaho, Mr. Simpson.
    Mr. Simpson. Chief, it is good to see you again. I am glad 
to see my colleague from Idaho brought up the issue of fires in 
Idaho and the siltation that occurred from there. We probably 
destroyed more salmon habitat 2 years ago in Idaho than we have 
since the 1910 fires. I can tell you, having spent a couple of 
days up there on those fires, I am glad there was a couple of 
roads up there to get into them. Otherwise, it would have been 
even more catastrophic than it was. That is just a comment.
    Relative to Charter Forests, I wanted to ask you about 
those. Have you seen a bill that we have introduced, H.R. 2119, 
Heritage Forests? Have you had an opportunity to see that?
    Mr. Bosworth. I guess I haven't.
    Mr. Simpson. As you are looking for ideas, take a look at 
that. What it does, the intent behind that is to be able to go 
into some of these forests that we have where the native 
species are being driven out by other species and restore them 
to their natural heritage states. That is an interesting piece 
of legislation. We had it last year. I encourage you to take a 
look at that. I would like to work with you on Charter Forests, 
Heritage Forests, whatever you want to call them.
    Also, there are many proposals out there. One of them is 
the Idaho Federal Lands Task Force which has made five 
recommendations of collaborative effort of management, 
different styles of management, each one of some Federal lands 
and some of them forestlands.
    Take a look at those ideas because I really do think that 
the future management of the forests is going to be much more 
locally involved and local input in both the problems and 
solutions that drive our policies.
    You mentioned that in the hazardous fuels reduction the 
President's budget calls for 70 percent of the fuels hazard 
reduction appropriation to be directed toward work in the 
wilderness-urban interface.
    Mr. Bosworth. In the wildland-urban interface.
    Mr. Simpson. Excuse me. That is what I meant. Are there 
examples of areas where fire has burned rapidly from a 
wilderness area into an area of mixed Federal and other 
ownership including improved property? Are there legitimate 
forest management reasons for treating areas outside of this 
wildland-urban interface?
    Mr. Bosworth. There are situations where fires have burned 
from a number of miles away to a community. There are lots of 
different good reasons why you would do fuels reduction in 
areas that may be further away from the wildland-urban 
interface.
    On the other hand, it makes sense, I believe, to start 
close to the communities and work your way out over time. I 
want to give you an example. If you end up being several miles 
away from a community and you are going to reintroduce fire 
into an area because you have done some thinning from below and 
now you want to get fire back in, if you have a huge amount of 
fuels between that area that you are treating and the town, you 
really increase the potential to have a prescribed burn get 
away and threaten the community.
    So, it makes sense from my standpoint to start closer to 
the community and work your way out rather than being a long 
ways away from the community and doing the treatments there 
first.
    Mr. Simpson. Will the Forest Service have projects far 
enough along through the planning and NEPA processes that such 
a target of 70 percent can be met by 2003?
    Mr. Bosworth. I believe we will by 2003. Last year I 
believe that in testimony I had mentioned that the projects 
that we would be doing in 2001 would not in a lot of cases be 
around the wildland-urban interface simply because the projects 
that we had on the shelf and ready to go were further away from 
the communities.
    But we started then in getting a focus on the projects that 
were in the communities at risk. We have been doing the 
preparatory work for those, environmental assessments, 
environmental impact statements, working with the communities. 
So we will be accomplishing significant acres in the non-
wildland-urban interface, but we will be getting the stuff 
around those communities as well.
    I also want to say that so many percent refers to dollars, 
not acres. It is much, much more expensive to treat those lands 
near the communities than it is the lands that are further 
away. So, remember that.
    Mr. Simpson. In previous testimony, I believe it was in 
testimony, we talked about the problems and the length of time 
it takes to complete a NEPA process. I think you mentioned to 
me, I think the numbers one time were that the Forest Service 
spends about 20 percent of the time or dollars making a 
decision that it believes is a sound decision. Then about 80 
percent of its time or dollars making it bulletproof from 
lawsuits.
    You were concerned about that, as I am. Have we found a 
way, are you working on a way to try to smooth out this NEPA 
process that we have going?
    Mr. Bosworth. Yes, I talked about 20 percent, 80 percent, 
30 percent, 70 percent a couple of times. I have gotten those 
figures in talking with forest surveyors and district rangers 
who are doing the work and asking them how much information 
they had, how much time they had spent before they had enough 
information to make a good, sound decision, science-based that 
involved the public.
    Most of them told me that it was about 20 or 30 percent. We 
are doing work right now. The report I mentioned earlier that 
we were about to complete describes the problem we are looking 
at. There are options we might have to decrease the amount of 
analysis and the amount of paperwork that it takes to get the 
job done.
    I would like to ask Sally to add to that a little bit.
    Ms. Collins. I just wanted to say, too, that the whole area 
around NEPA we are taking real seriously and looking at it from 
just a whole bunch of different dimensions. There are some 
specific changes we are looking at internally that we have some 
management control over. But there are a whole lot of things 
that we are right now working on with the Council on 
Environmental Quantity that are some potential regulatory 
changes or policy changes that we think we can work on with 
them.
    We currently have an employee from the Forest Service at 
the Council on Environmental Quantity, working with us to look 
at some of those. In addition to that, we have some new 
categorical exclusions we are proposing. We are working those 
through the process right now so that by the summer we should 
have some new categorical exclusions that will also speed up 
any of the process.
    But we have just a whole array of those kinds of things 
that we are working on. Interestingly enough, we had an 
internal survey done by Forest Service employees on what were 
the most aggravating issues for them internally. The whole 
process issue is probably the most demoralizing piece for 
employees. There is a lot of internal energy and anxiousness to 
get this solved.
    One of the examples someone told me on a recent field trip 
was just what took 2 years ago, just 2 years ago or 3 years ago 
they could analyze in four or five pages for a biological 
evaluation is now 60 pages, just because of needing to justify 
those kind of decisions.
    What we are thinking through are some policy changes and 
potentially some regulatory changes that are not going to 
change the intent of the environmental laws, in fact it may 
even help us realize the intent of the environmental laws, if 
we can actually see some of those kind of changes, it would 
actually help our employees get some work done on the ground.
    Mr. Peterson. Thank you. I'm going to let the Ranking 
Member start the second round of questions. Now that puts me at 
a slight advantage because once in a while we disagree and I 
get the chance to correct the record after he has done so.
    Mr. Inslee.
    Mr. Inslee. We appreciate your correcting my mistakes 
always. It is a full time job, believe me.
    Chief, the Pacific Northwest Assistance Program has really 
been helpful to some local communities. The administration has 
not funded it this year. Why would the administration conclude 
that there are other sources that are as good or better than 
this for the needs of these local communities that have had 
real dislocation?
    Mr. Bosworth. Well there are a number of things that we do 
across the country in our programs that I believe would help 
with community vitality and community economics. Some examples 
would be what we call the Wyden Amendment that allows us to 
spend National Forest System dollars on private lands if they 
are adjacent or near National Forest lands.
    The fuels treatment work that is going on in a lot of 
places can be used on both private as well as National Forest 
lands if they are adjacent to the private lands.
    There is Payments to States legislation that was passed by 
Congress and signed into law that provides 25 percent for Title 
II of the Act that would contribute in some cases to community 
vitality. There are a number of programs that actually help 
with community assistance.
    Then, I think some of the opportunities that we have to 
work closely with communities where we are trying to do more 
outsourcing of contracting, more outsourcing of work through 
contracting, where we can contract with local communities to do 
work on National Forests that I think helps those communities.
    Recreation and tourism and particularly getting information 
to the public on the opportunities for recreation and tourism 
on the National Forests are another place where you can help 
with community economy.
    The Forest Stewardship Program with its technical 
assistance support would increase by $16.1 million under the 
President's budget and that would provide $10 million for small 
diameter and under-utilized wood biomass that could help 
communities.
    So there are a number of other things that I think would 
also help communities in addition to that program.
    Mr. Inslee. I want to ask you about the Roadless Rule. 
First off, you can just tell us what timing we could expect or 
what you are thinking as far as timing on a specific action by 
the administration. Can you tell us, has there been any change? 
There was, at least in our characterization, an overwhelming 
sentiment for a strong roadless policy in the first go-around 
of hearings and comment. Has there been any diminution of that 
sort of ratio of strong versus not quite as strong comments 
from the public?
    Mr. Bosworth. Well, I don't really have any real good way 
right at this point to measure whether that has changed one way 
or the other. My guess would be that if you talked to those 
same people who commented before, those same people would 
probably have pretty much the same sentiments that they had 
when they commented a year and a half ago.
    There are a couple of aspects with the roadless issue that 
are in play. One has to do with the fact that we went out with 
an advance notice of rulemaking, proposed rulemaking, that 
asked, I think it was ten questions. We asked people to sort of 
answer those ten questions and give us their viewpoints so that 
we could look for other ideas and things on how we might move 
forward with this.
    We are currently evaluating that, going through the content 
analysis from those comments that we got when we went out with 
ANPR. The other thing is that with all the court cases and 
lawsuits on the roadless policy and being before the Ninth 
Circuit, there is still some uncertainty in terms of what the 
Ninth Circuit may end up doing with Judge Lodge's decision and 
that will have something to do with how we would move forward 
as well.
    Mr. Inslee. Do you intend to wait for at least the Court of 
Appeals decision on that before you issue a formal roadless 
area policy? Is that the understanding or do you know yet?
    Mr. Bosworth. I can't answer that for certain. My guess is 
that it would make sense to see what the Ninth Circuit is going 
to do before we come out with some final proposal. There are 
also a number of other cases, I think nine other lawsuits in 
six other judicial districts and four other Federal circuits 
regarding the roadless conservation rule. So, it is a fairly 
complicated process that we need to work our way through and 
look to see if we can't find some kind of consensus around 
that.
    Did you have something to add, Sally?
    Ms. Collins. I would just say that we also are looking at--
we were approached by a pretty diverse collection of outside 
interests interested in helping us work through some kind of a 
mediated look at what we do with roadless. We call it the Roads 
Working Group. They are in the process of meeting and coming up 
with some ideas about how we might work our way through that. 
So, that is going on as we have the public comments on, as we 
have the court.
    Mr. Inslee. How many tracks are proceeding that you have 
individually reviewed? You announced that you were going to 
individually review requests, including those in some revised 
forest plans and those not. Can you give us some assessment of 
how many are proceeding in the Tongass or otherwise?
    Mr. Bosworth. I sent a letter out, it must have been in 
last June and then we put it into an interim directive that 
held to me the decision on whether or not to enter roadless 
areas with roads. But there were exceptions to that. The 
exceptions would be those same exceptions that were in the 
roadless area conservation rule and also if a forest plan was 
completed, a recently completed forest plan, then the Forest 
Supervisor or Regional Forester could made the decision in 
those particular cases.
    I have had no requests from any Regional Forester to make a 
decision regarding entry into a roadless area.
    Mr. Inslee. Thank you.
    Mr. Bosworth. You are welcome.
    Mr. Peterson. The reforestation budget has been cut by $355 
million with borrowings in recent years. Last year $51 million 
was construction and maintenance; $24 million timber purchaser; 
Elect Road Construction Fund $15 million; Timber Salvage Fund 
$51 million; Working Capital Fund $20 million; Reforestation 
Fund $39 million; Hazardous Fuels Projects $10 million; Backlog 
Fire Facility Repair, $59 million, again for restoration and 
rehabilitation from fires; $5 million for research and 
development; and $6 million for State fire assistance.
    It appears that you are constantly having to borrow--or 
some would say ``steal''--from other funds because of fires. 
Have we adequately funded the fire program? I mean when you 
have that kind of money taken out of reforestation and other 
projects you hamper those programs. To me that is the on-the-
ground money the bureaucracy turns on. But the on-the-ground 
money gets taken for fires.
    Should we be funding you for fires more adequately?
    Mr. Bosworth. Well, we need a long-term solution to the 
problem that we have. If we have an average cost of about $474 
million, which is an average 10-year cost for fire suppression. 
If we have fewer dollars than that, then in the end, during 
most fire seasons we are either going to have to borrow money 
from other funds, or we are going to have to pull firefighters 
off the fire line. I don't think there is going to be a lot of 
support to pull the firefighters off the fire line, 
particularly around these communities.
    So, this does cry out for a long-term solution where we at 
least have some kind of line of credit or some other thought-
out place to get the dollars if we are going to need them for 
fire suppression. I realize there is criticism about our fire 
suppression costs, the cost for large fire suppression. We are 
doing a lot of things right now to try to figure out how we 
might be able to cut some of our fire suppression costs.
    But I will say that in the end my belief is that where we 
can cut costs we will, but in the end I think it is going to be 
marginal costs around the edge. It is not going to be 
significant reductions in the costs of large fire suppression. 
So, we do need to come up with a long-term solution on what we 
are going to do in those years that we fall short, years like 
the year 2000 where we fell significantly short of the dollars 
that we had.
    Mr. Peterson. Well, as I was saying, last year was not as 
bad a year. But these borrowings I listed were last year's 
borrowings. So, that is right. If it had been a bad year those 
funds could have been depleted.
    Mr. Bosworth. That is exactly right.
    Mr. Peterson. Let us give you a message. We can speak and 
you can quote us. When you go back and talk to OMB, tell them 
that there are a lot of folks in Congress, on this committee, 
who think they ought to release those funds and that you 
shouldn't have to be borrowing from other accounts. Is that 
message clear?
    Mr. Bosworth. Yes, very clear.
    Mr. Peterson. What are the agency's plans to provide 
leadership and inter-agency coordination for the Fire Plan? 
What are you doing to show leadership to the rest?
    Mr. Bosworth. In terms of inter-agency?
    Mr. Peterson. Yes.
    Mr. Bosworth. Well, there is a number of things that we are 
working on right now with the other agencies for the National 
Fire Plan, things like identifying performance elements. They 
are the same kind of performance criteria, performance elements 
for both the Department of Interior and the Department of 
Agriculture Forest Service.
    We are working together to make sure that how we describe 
our performance is going to be the same for both and that they 
are results oriented. We are working on a complimentary budget 
request approach so that we are not inconsistent with the 
Department of Interior in the way they approach that.
    Our inter-agency cohesive strategy is an inter-agency 
cohesive. That is something that the agencies within Interior 
as well as the Forest Service and USDA are working on together 
and we are about to have that completed. We should have an 
implementation plan completed within the next few weeks. That 
implementation plan will be an inter-agency implementation 
plan.
    I think the most important thing, though, is the 
interagency group, the leadership council, that would be the 
heads of the agencies who would be working together to provide 
that leadership within all five agencies. That is the thing, I 
think, in the end that will make a big difference.
    Mr. Peterson. Are we working toward a czar?
    Mr. Bosworth. Fire security czar? Tom Ridge is finding it 
very difficult to get Federal agencies to work together for 
homeland security. These are huge beasts. I mean I say that as 
a long time governmental person with a business background. 
These agencies are tough to deal with one-on-one. But when you 
try to get three of them to go on the same track, it is not 
easy, no matter what area you are in, human services or forest 
services. It is not an easy deal.
    Mr. Peterson. Well, my view is that when we get the charter 
completed and signed off for the agency leadership council with 
the five agency heads working together, I do believe that we 
won't need to have a fire czar; that the five agencies will 
work together and accomplish what is expected.
    Mr. Bosworth. Well, I hope your optimism bears fruit.
    Mr. Peterson. I don't know if you are familiar with what we 
call the NWCG. That is the National Wildfire Coordinating 
Group. That is an organization or group that is made up of the 
wild land firefighting agencies as well as the States that has 
been in place for a number of years. That is a group that 
together establishes the training requirements, establishes the 
red card system that works through the Instant Command Teams 
that we have that work on fires or inter-agency.
    We may have our Forest Service people reporting to a Park 
Service person or even a State or county person who is the 
incident commander. But they are all part of the same team on 
suppressing fires. I think the model with that National 
Wildfire Coordinating Group, that model is the same sort of 
model that we are talking about with our agency leadership 
council that has been very successful, very successful.
    Mr. Peterson. I will say this and then I have to move on to 
the next questioner here. But I hope all of these value the 
safety of a human life over a species. That is my personal 
belief. We shouldn't be worried about some of the things we did 
the last time, whether we move or we don't move, an endangered 
plant is not as valuable as a human life.
    Mr. Otter.
    Mr. Otter. Thank you, Mr. Chairman.
    Chief Dale, would you take me through a decommissioning the 
operation process, the actual physical process of 
decommissioning a road?
    Mr. Bosworth. Well, there are different approaches, but let 
me give you one approach. What we would do is, first, through 
an analysis process such as a watershed analysis or a road 
analysis, when we determine that a road should be 
decommissioned, it may be a road that hasn't been used for 20 
years or it may be a road that has been and for one reason or 
another we decide that it needs to be decommissioned.
    One way would be to put a physical barrier at the end of 
that road so that people are not going to continue to drive on 
it. We put a sign up and you go through the public announcement 
process so people are aware of it. Generally, if it is going to 
be decommissioned we should be pulling the drainage out of it 
and putting it back to its normal state, so the water will flow 
in its normal channel, in its regular channel.
    We may put some native grass seeds back in it to get it 
growing. That is one way and just leaving the road prism in 
place.
    Another way may be that we would pull some of the road 
prism out. In other words, pull the fill slope back up into the 
road bed and plant that and also pull the drainage out. So, it 
depends upon what the long-term purpose is and what your 
objectives are, but there could be several ways of 
decommissioning. Again, from simply just putting up a barrier 
to stop people from using it clear to putting it back to its 
original contour.
    Do you want to add to that?
    Ms. Collins. Yes. Another thing I was going to add is that 
every road has a friend. Every road in the National Forest has 
a constituency. I look back on my time as a manager of a 
National Forest and I think some of the most sensitive issues 
we dealt with were roads issues, whether you are proposing a 
seasonal closure or a gate or a decommissioning.
    So, the public development in that, when the notification 
and letting people have an opportunity to comment on that was 
always a huge part of that process because, like I say, people 
really care about many of those areas.
    Now, there are some places where it is easier than others. 
But generally, whether it is a family that has camped in an 
area for a long time or a hunting group or it is an important 
access for firefighting or whatever it might be, there is 
always a constituency for an area.
    So, it is important for us to be working with people as 
part of that process.
    Mr. Otter. I see. The reason I asked that question is that 
I happened on to a road that, I guess, decommissioned. It was 
at the Sawtooth. The devastation that resulted from the 
decommissioning three or 4 years ago, because of the prism, as 
you called it, had been removed and the watershed, there was a 
mechanical effort made to get it back to its natural state. The 
resulting washout and concentration of flows gouged a terribly 
deep hole into the surface. Then it subbed and probably a 25-
acre section of the mountain slipped off because it subbed down 
below, went between the rock bed and the soil.
    I was told that was a result of them trying to remove a 
road. It would seem to me, it looked to me like there was a 
whole lot more damage done by removing the road than if you had 
just put up the gate or put up the block or gouged one of those 
Kelly humps or whatever you call it in the road to stop 
traffic.
    But it was awful and the damage that was done is going to 
be there for a long, long time. I don't know when that will 
ever come back. Obviously, not in my lifetime.
    I am sure you are sensitive to those things, not to do more 
damage than just to leave it there. In this case, then it was 
ripped. The other thing that was interesting was that the old 
road surface was ripped in the plane parallel to slope. Of 
course, the water then just got into one of those deep rip 
ditch and it just continued to widen and wash more and more and 
more. They think that is what eventually caused the slip-off. I 
would like to have the opportunity to show you that.
    The other thing I guess I would like to see, I would like 
to see a successful decommissioned area. I don't mean a 
picture. I mean I would like to know where there is a 
successful decommission that is maybe 5 years old that we can 
go out and look at because all I have seen thus far is 
unsuccessful ones where you actually tried to take them out.
    Mr. Bosworth. I would look forward to taking you to 
northern Idaho and visiting some places up in the Clearwater 
National Forest that I believe you would like to see. It was 
fairly uncontentious, if that is the right word. There wasn't 
too much controversy associated with it. Most people believed 
that it was something that needed to be done. In fact, I would 
like to see it after three or 4 years, too, to see whether or 
not it looks like it should look and like we hope it looks. 
Maybe we can learn something from that.
    Mr. Otter. Just one additional question then: How are we 
going to get in to see it?
    Mr. Bosworth. Well, we will walk a little bit or you can 
bring your horses.
    Mr. Otter. Good point.
    Mr. Peterson. The gentlemen from New Mexico is recognized.
    Mr. Udall of New Mexico. Thank you, Mr. Chairman.
    Chief Bosworth, I represent a district with a number of 
Native American tribes in it. The fire season we had in 2000 
was pretty devastating to some of them in terms of their 
forests. I am wondering what work the Forest Service has done 
to work with tribes and assist them in the implementation of 
the National Fire Plan?
    Mr. Bosworth. There are a number of things. Of course, it 
depends on individual tribes. The work that is being done on 
one forest to another forest may vary some, but one of the 
focus areas is to make sure that we are working with the tribes 
as well as working with the States and the counties and the 
local people in determining where we want to do fuels 
treatment. We use a lot of tribal members in fire suppression, 
in our fire suppression activities.
    We work very closely with the tribes in terms of the fuels 
aspects. I don't know that I can talk to the restoration or 
rehabilitation aspects, but I can find out and get back to you 
on that part of it.
    Mr. Udall of New Mexico. Thank you. In the GAO report on 
severe wildland fires it mentioned percentages in terms of 
where you are applying money in terms of wildland-urban 
interface. Apparently, there is a large number of acres, the 
number that I have is 785,000 acres of non-wild and urban 
interface lands which have been targeted for treatment. Could 
you tell me what your thinking is on that, why such a large 
amount and what the reasons are?
    Mr. Bosworth. The work that we did in 2001 with the 
National Fire Plan in terms of fuels treatment was not as 
focused on the wildland-urban interface as we would like to 
have it. The reason for that was because the projects we had on 
the shelf ready to go were projects that were not necessarily 
focused on the wildland-urban interface.
    It takes a couple of years usually to work your way through 
the environmental analysis, the consultation and the 
collaborative work you need to do with the communities to 
decide where you are going to do the work around the community, 
where the highest priority work is, what kind of work and then 
do the documentation.
    So, just because of the short timeframe when we got the 
first National Fire Plan, the dollars, that first year's worth 
of work wasn't able to be focused as much around those areas as 
we would like. But that is where we are heading now and more 
and more the projects are going to be focused on those areas 
now.
    I am just looking at some figures here. In 2001 we had some 
611,000 acres, approximately, and in 2002 about 544,000. In 
2003 the plan is to have about 965,000 in the wildland-urban 
interface. So, that is a fairly significant jump. That is 
mainly because it is a two or 3-year lag before you can start 
projects from the very beginning until you work your way 
through that process.
    That takes me back to some of the process gridlock that I 
worry about. The GAO, in its January 2002 report, Severe Wild 
Land Fires, supported a recommendation made by the National 
Academy of Public Administrators that an inter-agency national 
council should be created to provide leadership and ensure that 
funds appropriated to implement the National Fire Plan are 
spent efficiently.
    What are your thoughts on their recommendation?
    Mr. Bosworth. Well, the Secretaries of Interior and 
Agriculture directed the Deputy Secretaries to decide how they 
wanted to approach this from a leadership standpoint. Their 
direction was for us to establish an inter-agency leadership 
council at the agency level. In other words, the agency heads 
would be the inter-agency leadership council.
    That is a charter that we have developed. It is now over at 
the Department of Interior and hopefully will be approved and 
signed by the Department of Interior in the near future. To 
establish this inter-agency leadership council I think would 
meet the expectations that I think the GAO report was citing.
    [The GAO report on Severe Wildland Fires has been retained 
in the Committee's official files.]
    Mr. Udall of New Mexico. Thank you. Thank you, Mr. 
Chairman.
    Mr. Peterson. The President's budget calls for allowing 
non-commercial interests to bid on timber sales. Can you 
explain how this proposal helps you achieve your land 
management objectives?
    Mr. Bosworth. Well, the notion on that proposal would be to 
increase the competitiveness and therefore the value of timber 
sales. About 60 percent of the timber sales that we offer are 
timber sales for other purposes. It may be for habitat 
improvement. It may be for fuels reduction for watershed 
restoration. In those cases, that wouldn't apply. The other 40 
percent of the timber sales that we offer that are specifically 
for the purposes of providing timber, selling timber. This 
would be a proposal that could allow other interests to bid on 
those and therefore not have the effect on the land management 
objectives that I believe you are talking about.
     The 60 percent of the timber sales that we offer--
    Mr. Peterson. They are to be low-cost sales by design.
    Mr. Bosworth. They do other things other than just provide 
wood supplies?
    Mr. Peterson. Why aren't those in separate budgets? You 
know, they criticize timber sales just because they don't make 
money when the biggest share of them are not about making 
money. Those should be under a different title. They shouldn't 
be allowed to do that to you. I am serious.
    Mr. Bosworth. Well, it causes a lot of confusion in the 
public. We have a tool.
    Mr. Peterson. It is self-induced by putting it together.
    Mr. Bosworth. We have several tools for accomplishing work 
on the land. Those tools may be a service contract. It may be a 
Forest Service crew. It may be a stewardship contractor. It may 
be a timber sale. If our objective is reducing the fuels, for 
example, any one of those tools may be the right tool, 
depending on the particular circumstances and the particular 
situation.
    Then there are other projects, timber sales, that we may 
sell strictly for the purpose of getting a return to the 
government and getting wood fiber on the market. That is a 
different purpose. The two things get pretty confused with the 
public in terms of our timber sale program.
    Mr. Peterson. I guess I would find it problematic with the 
small amount of timber that is being sold by this huge agency 
and now to allow anti-forestry practice people, you know, 
managing forests, you may do a commercial sale that is 
profitable, but there is going to be a lot of winners with 
well-managed forests.
    If we don't manage them, they are all going to eventually 
die. We get into the issue of carbon sequestration. You know, a 
young managed forest is a great carbon sink. It sucks carbon 
out of the air to make the trees, you know, like well-managed 
farmland. When you have aggressive plant growth, you are taking 
the carbon out of the air. There is a lot of concern about 
carbon dioxide today.
    If we stop managing, and it seems to me this proposal stops 
managing, we are going to let all our forests grow old and die. 
Now, there are lots of people who believe in that. I think it 
is the most stupid thing I have ever heard of because watching 
an old forest die, there may be some beautiful parts of it, but 
as a whole if we let all the forests in this country age and 
die, they become carbon dioxide emitters and they also become 
ugly places with limited wildlife and habitat because old, 
dying forests are not where you see wildlife activity like you 
do.
    So, I guess I question that 40 percent is now going to be 
challenged by people who would in turn pay for.
    Mr. Bosworth. Well, it is an area where we would be very 
interested in working with you folks and seeing if there are 
some areas that we could explore along those lines and see 
whether or not there are some things that would be particularly 
useful.
    You were talking about the carbon sequestration. I would 
just like to add that we have some very good research that has 
taken place in terms of carbon sequestration on national 
forests that is important research that is going on there. I 
think it will be informative as it goes along.
    Mr. Peterson. Well, let's assume the 40 percent all gets 
purchased by people who don't want to cut down the trees, who 
don't want forestry practiced. Doesn't that prevent you from 
legally complying with the law of your management plan?
    Mr. Bosworth. Well, if we allow this proposal, it would 
require action by Congress and we would have to work together 
with Congress to figure out how legislation should be put 
together. My assumption would be that if Congress passes 
legislation along those lines that it would be legal.
    Mr. Peterson. The gentleman from New Mexico.
    Mr. Udall of New Mexico. The budget request, Chief, lists 
two items that will be addressed in legislation regarding 
timber sales. One of them says the legislation will be 
forwarded to Congress to require sealed bids on timber sales. 
Is legislation necessary to require the Forest Service to only 
offer sealed bids on timber sales?
    Mr. Bosworth. Right now, we have both sealed bid and oral 
auction timber sales.
    Mr. Udall of New Mexico. But legislation isn't required, is 
it, for you to go ahead and do sealed bids on timber sales?
    Mr. Bosworth. No. We do sealed bid timber sales right now.
    Mr. Udall of New Mexico. Right now? You have the authority 
to do it?
    Mr. Bosworth. I believe that this proposal would require 
that virtually all timber sales be sealed bid timber sales as 
opposed to oral auction.
    Mr. Udall of New Mexico. But right now administratively you 
could move forward and make all of your timber sales sealed 
bid.
    Mr. Bosworth. That may be possible with some policy changes 
internally, and I am not sure whether or not it would require 
legislative change. I don't know whether we can do it through 
policy or regulatory approaches or not. But my belief is that 
there are some reasons why in some cases we have been having 
oral auctions that either has to do with law or maybe it has to 
do with some things that we changed regulations on. I will have 
to get back to you on that.
    Mr. Udall of New Mexico. OK. I just thought if your 
approach was to believe that this was a good idea and it's a 
better way to do it and you have the administrative authority 
now, then you should probably just go forward and do it.
    Mr. Bosworth. I am just not sure that we can implement that 
fully without some legislative change.
    Mr. Udall of New Mexico. OK. Thank you.
    The budget request anticipates for the Fiscal Year 20032.4 
billion board feet of timber to be harvested. How much of that 
is intended to come from roadless areas?
    Mr. Bosworth. I think the number is 2.0.
    Mr. Udall of New Mexico. Billion?
    Mr. Bosworth. Billion board feet.
    Mr. Udall of New Mexico. OK. So, I am high here. Two point 
zero billion board feet.
    Mr. Bosworth. I don't believe that there would be any that 
is being planned right now for roadless areas.
    Mr. Udall of New Mexico. Is any of that from the Tongass in 
Alaska?
    Mr. Bosworth. There could be some from the Tongass. That is 
would be an exception to that, some of the roadless areas in 
the Tongass. I can give you the figures for the Tongass 
specifically, if you would like those.
    Mr. Udall of New Mexico. Yes, I would like those. Aside 
from the Tongass, there wouldn't be any from roadless areas?
    Mr. Bosworth. I am not aware of any from roadless areas. I 
can check that, but I don't believe there is any planned from 
roadless areas.
    Mr. Udall of New Mexico. I have just been shown this. I 
guess this is the budget justification. It is 2395 board feet.
    Mr. Bosworth. Let me have Hank address the volume number.
    Mr. Kashdan. There is a table in the budget justification. 
The 2.4, I believe, is what is being shown as timber harvest. 
The 2.0 is the planned offer volume. The timber harvest is 
planned at 2.4. Our reporting and accomplishment measures are 
based on timber offer, which is the 1.999 amount.
    Mr. Bosworth. The timber harvest is the harvesting of 
timber from sales that sell this year and last year that are 
three or 4-year sales. So, that is sort of the estimated amount 
of timber that is going to be harvested from those existing 
timber sales.
    Mr. Udall of New Mexico. Does the 2.4 include salvage 
sales?
    Mr. Bosworth. It would include both salvage as well as 
green timber sales.
    Mr. Udall of New Mexico. OK. Thank you. Thank you, Mr. 
Chairman.
    Mr. Peterson. I thank the gentleman.
    The very patient gentleman from Idaho, Mr. Otter.
    Mr. Otter. Thank you, Mr. Chairman.
    Chief Bosworth, would you run again through the different 
types of sales there are and contracts on bids. It sticks in my 
mind that how could we have a sale without a reduction in fuel, 
whether it was a good reduction in fuel or method in order to 
harvest some good timber or if it was a reduction in fuel in 
order to prevent forest fire or if it was a reduction in fuel 
like we desperately need in Clearwater in order to increase the 
elk habitat.
    Tell me why we would have a removal of trees or whatever is 
there if it wasn't a reduction in fuel.
    Mr. Bosworth. Well, we have timber sales, some timber sales 
in some parts of the country where the purpose for those timber 
sales is strictly to provide wood fiber that is not necessarily 
a part of a fuel reduction effort.
    Mr. Otter. But isn't the effect of it to reduce the fuel 
loading?
    Mr. Bosworth. It would remove some fuel when you take the 
tree out, that's correct. But it may not be the kind of project 
that would necessarily reduce the fire hazard because it may be 
leaving more small fuels, fine fuels that would actually 
increase the risk. So, if it is not designed from a fuels 
reduction standpoint then it may be meeting other purposes, but 
it may not meet the purposes of fuel reduction. It may be in a 
place where fuel reduction isn't a big issue or a big problem.
    Mr. Otter. I have a question relative to the research and 
development on invasive and noxious weeds. I don't have the 
exact figure, but information that I have is that the Forest 
Service is planning on using some of the funding that now goes 
to the Montana Research Station for funding this SIMFOREST 
software program. What exactly is the SIMFOREST plan and how 
and why is it more important than the research and development 
that we have going on at Montana Research?
    Mr. Bosworth. First I want to say that the research budget, 
the research program that is proposed does readjust some of the 
priorities for research, both putting some dollars into forest 
inventory and analysis and into a few other areas that this 
budget would move us toward.
    For example, areas that this budget would move us toward, 
for example, the SIMFOREST. The SIMFOREST is really developing 
a model that would simulate sort of--the ``SIM'' stands for 
simulator that would be a simulation model that would allow a 
better understanding of some of the complex interactions that 
take place with a growing forest. It would particularly be 
helpful to private landowners and consulting foresters maybe to 
better understand what would happen if they do certain kinds of 
forest management on their particular piece of land.
    It is only in the very early stages conceptually. It is an 
area that could be very beneficial, particularly to private 
landowners.
    Mr. Otter. In this simulated model of forests, would that 
include an opportunity to see what kind of a TMDL addition 
loading a forest fire would have on a watershed and whether or 
not it would contemplate then having to stop other legitimate 
activities on the watershed because of a forest fire?
    Mr. Bosworth. We are very early in the process at this 
point in looking at this. But let me have Robert Lewis, our 
Deputy Chief for Research and Development, give you a more 
specific answer regarding the SIMFOREST model.
    Mr. Lewis. Thank you. The SIMFOREST is a technology 
transfer methodology that will allow us to take research data 
and simulate forest management of all types over time. Fiscal 
Year 2003 would be the first year of this particular program 
and a number of research stations will be involved. In fact, we 
will start a fairly new unit at Moscow, Idaho with about $1 
million of that program going to it for 2003.
    Earlier you wanted to know about the FIA Program. FIA is a 
very high priority for the agency. We developed a strategic 
plan to fully implement the FIA program and so the 
administration proposed full implementation in 2003 as we had 
outlined in the strategic plan for FIA.
    Mr. Otter. Thank you very much. I would like to follow that 
up with another question. You were here with Lyle Lafferty, 
weren't you here with Lyle Lafferty and Gail Norton a couple of 
weeks ago? You mentioned the SIMFOREST then. I got the 
impression that it was up and running and you weren't going to 
need any money for it; that you already have a product.
    Mr. Lewis. Well, the SIMFOREST is a different new 
initiative that is not specifically geared to the National Fire 
Program but for all forest management activities including 
silviculture. Actually, you can look at stands and predict how 
they would develop over time, watersheds, for example.
    Mr. Otter. I see. Let me get back then now to Ms. Collins. 
Maybe she can answer my question relative to we have certain 
loading levels of total daily loading, TMDLs. We do have a lot 
of activity because we have some locked in lands within the 
forest boundaries and that sort of stuff.
    It would seem to me, do we have any information on the 
maximum daily loading that takes place as a result of a forest 
fire on a watershed? Do we have any of that information?
    Ms. Collins. Not on a daily basis as the fire is burning. I 
don't think we do. In fact, while the fire is burning that kind 
of testing generally is not done. It is done as we are right 
away in there doing a burned area rehab work. That is where we 
are starting to test for whatever water quantity issues we know 
are going to be there from erosion.
    So, we're in there right away looking at that and looking 
at what needs to be done relative to that, looking at where we 
want to plant trees and where we want erosion control, those 
kinds of things.
    Mr. Otter. I understand that. What I am concerned about is 
hearing our assessment of whether to thin, whether to take out 
a road in an area that perhaps we need to remove some more fuel 
from that, as a result of our not taking that out and that 
forest burns and the fuel loading is as heavy as it was 2 years 
ago on the 880,000 acres and subsequently we calcined the earth 
about 16 to 18 inches deep where nothing is going to grow for a 
long, long time.
    Then we used that TMDL loading as a result of that forest 
fire to stop other activities on that watershed so it is sort 
of a collateral economic damage that was going on there. 
Another reason that we need to take at least into 
consideration, is it advisable for us to remove that loading 
rather than end up increasing the total loading on it on a 
daily basis if there is a forest fire?
    Ms. Collins. Right. So, you are basically arguing for doing 
the kind of thinning that we need to do to reduce those kind of 
catastrophic fires, at least that is what I think I am hearing 
you say; get in there and pre-treat those areas so that you 
don't have a catastrophic fire so you don't have that kind of 
erosion problem. Is that what I'm hearing you say?
    Mr. Otter. If we had had a basal measurement load on a lot 
of those areas that burned in Idaho of 150 or 180 or even 200 
or 250, but when we had 650 and 700 and 750 in the basal 
measurement, it was such a load, I mean the earth may have been 
scorched a little bit but it wouldn't have burned 16 or 18 
inches deep like it did.
    So, that is going to maximize the loading that is going to 
be. As a result, that watershed is going to be damaged for a 
long, long time. So, my question comes down as, if we are 
making assessments on forest health based upon how good the 
water shed is, what is the effect of the watershed burning 
because we didn't go in and remove that.
    Mr. Bosworth. You are making the same arguments that we 
make for a lot of reasons why we ought to be implementing the 
National Fire Plan. We need to be doing fuels treatments. We 
need to be doing active management on the land so that we can 
reduce the threat to both homes and structures and communities, 
but also to municipal watersheds so we can reduce the effect on 
other forest resources such as soils and water quantity.
    So, I am in full agreement that we need to be actively 
managing particularly the drier Pine type part of the National 
Forest System where we have the Ponderosa Pine, the drier 
ecosystems that historically burned more frequently, like every 
15 to 30 years. We need to be in there doing the kind of 
activities that will decrease the severity of fires that go 
through there, whether they be for communities or whether it be 
for ecosystem health and watershed health.
    In your consideration of allowing somebody to bid on a 
forest sale that had no intent of going in and cutting to 
remove the fuel loading, let me just say--and I don't know what 
the results of all that would be--but let me just say that I 
would certainly encourage my State, over which 65 percent is 
Federal ground, that any damage that is done as a result of 
that fuel remaining there after the bid was let and those 
people decided not to take it out, like we do on cattle graze, 
if somebody comes in and bids a cattle graze and that fuel 
stays on the land and then there is a resulting fire and if 
there is collateral damage done to the state land or the 
private property, that whoever made that bid and then did not 
execute it is held responsible, financially liable for the 
other damage that was done.
    I don't know how fast a program like that can go forward, 
but to the extent that I can allow other States to do that 
through Federal legislation, I am willing to do just that.
    Thank you, Mr. Chairman.
    Mr. Peterson. You are welcome.
    The timber targets have been reduced continuously from, I 
guess 12.5 billion down to 2 billion. When will the Forest 
Service start meeting its timber targets and when will the 
Chief start holding line officers responsible for meeting those 
targets?
    Mr. Bosworth. Well, we are holding line officers 
accountable for meeting all of the targets that we agree on 
now. The timber target for 2003, with our proposal, would be 
two billion board feet. My belief is that we have to shore up 
our performance accountability in the Forest Service not just 
on whether or not we are meeting timber targets, but whether we 
are meeting our recreation responsibilities, our watershed 
restoration responsibilities and the whole works.
    My expectation is that when a Regional Forester takes the 
dollars, then they agree to do the work. I expect the work to 
get done. What I am going to keep focusing on is that my 
intention is to under-promise and over-deliver. I don't want 
the Forest Service making promises that in the end we can't 
keep. That is why I am going to keep harping about the analysis 
gridlock or the analysis paralysis that we are in because until 
we get that fixed, I don't want to make a whole bunch of 
promises of doing something more that I am not confident that 
we are going to be able to accomplish.
    Mr. Peterson. What are the consequences going to be for a 
line officer who doesn't meet their targets, if he or she 
doesn't get it done?
    Mr. Bosworth. Well, I guess I would have to wait. I mean 
there is performance, they get a performance appraisal at the 
end of the year. Some of it depends upon if there is one of the 
30 different targets that they were issued, and there is only 
one of them that they didn't achieve and there are reasons for 
that, then it depends upon the reasons and it depends upon 
whether or not they identified the shortfall and the reasons 
for the shortfall ahead of time and let us know what the 
problem was and we tried to see if we can fix the problem.
    You know, some of these things are outside of their 
capability to fix. But I want them to be managing the Regions 
in a way that identifies whether or not they are going to 
accomplish what they said they are going to do. If they can't 
we are going to have to find somebody else that can do that 
job. I do fully intend this year that we will meet our fiscal 
year 02 target of 2.0 billion board feet. I expect that to 
happen and it looks like we are on track for that to happen.
    Mr. Peterson. Right. I am pleased to hear that. You may 
have to send a sound out through the bushes that the rules are 
going to be enforced because until you do, you know, behavior 
won't change. I know a State agency that was so corrupt and so 
bad that when a new administration came in they started firing 
people for stealing.
    It had been so commonplace that the courts, there were 30-
some people that I know of that were fired for stealing who all 
got their jobs back. The public never knew this, but the courts 
gave them their jobs back because stealing was so common in 
that agency that they couldn't be the ones who were first 
punished. From there on they were allowed, but because the 
warning had been sent out. That is an extreme example, but it 
is true.
    Mr. Bosworth. But I do want to say that the Forest Service 
isn't corrupt, and I know you were not implying that.
    Mr. Peterson. No, I wasn't implying that. Let the record 
show that.
    Mr. Bosworth. But I also want to say that I believe we have 
some really, really good people out there in the field that are 
wrapped up in some really, really lousy systems.
    Mr. Peterson. Yes, it is lousy. But you do have to put a 
toughness out there. I mean, people have to buck up. You know, 
when somebody gets penalized for misbehavior the word is out on 
the street.
    Mr. Bosworth. If you shoot one, thousands fall.
    Mr. Peterson. That is right.
    Charter Forests, since the administration released this 
Charter Forest idea, the Subcommittee has been approached by 
scores of community-based organizations designating their 
national forests and respective backyards as Charter Forests.
    In my mind this is a scathing indictment of the process 
that governs the management of our national forests. It shows 
how debilitating this analysis paralysis, as you so aptly 
described it, has become. What are your thoughts?
    Mr. Bosworth. Well, my view is that the notion of Charter 
Forests is something that we should be working together with 
Congress in looking for some opportunities on how we might 
develop some proposed legislation that would allow us to 
experiment with some ways that would help us to work our way 
through some of these processes.
    In the meantime, I don't intend to wait and see what 
happens with Charter Forests. In the meantime I still expect us 
to be looking at some of the things we can do with our 
regulations and working with other agencies that have 
regulations that affect us and working with them to try to see 
if there are some changes we can make in our regulatory process 
that would help us to streamline some of these processes.
    Mr. Peterson. In your opinion, could you through regulation 
do some pilot work?
    Mr. Bosworth. There are some things that we can do within 
our current authorities, but generally it is going to take some 
legislation if we want to make any significant difference.
    Sally, do you want to add to that?
    Ms. Collins. The only thing that I would say is that we 
have been doing some of these things for quite a while. We have 
a couple of pilot projects out there where we are working with 
BLM really closely, sharing some authorities and getting some 
great efficiencies.
    In fact, this administration is proposing additional 
collocations between agencies. So, we have those kinds of 
pilots out there. We had other kinds of reinvention kinds of 
pilots where we are looking at different budgeting kinds of 
systems and learning from those pilots.
    So, we had a history of trying that and actually even 
before evolving to the Charter Forest idea had spent some time 
talking to our field organization about what are some ideas 
that you might have or we could pilot some ideas around the 
country, a different way to accomplish NEPA on emergency 
projects, for example, or something else.
    So, the ideas are flowing and it is not just around Charter 
Forests but they are flowing around a whole lot of other kinds 
of things that we could do that may not require legislation.
    Mr. Peterson. Do you think you could do a prototype Charter 
Forest without legislation?
    Ms. Collins. Well, I think it really depends on what we 
want to do and how far we want to go. I think that we could do 
a couple of different kinds of things. Now, some of the 
authorities we have on the Baca Ranch, for example, require 
legislation. We couldn't quite go that far. So, I think it 
depends on how broad a range we want to explore in terms of 
some authorities and some ideas.
    Mr. Peterson. Next question: Permanent extension of the 
recreation fee demonstration program was proposed in the 
President's budget. Tell the Subcommittee why you think it is 
important for Congress to give permanence to this user fee 
program.
    Mr. Bosworth. We have been experimenting now with the fee 
demo process for a number of years. We have learned a lot by 
experimenting with it. It has been a demo process basically and 
a demonstration process. We found things that worked. We have 
found things that didn't work quite so well.
    Some of the main principles that we have discovered though 
are that I guess may be self-evident, but there are things like 
if you make sure that the dollars go back to the area where the 
people are recreating, they are a lot more supportive of the 
process, in fact, in some cases very supportive of the fee if 
they know that those dollars are going to thing back to the 
area that they are interested in, where they recreate on a 
regular basis.
    The other thing that makes a big different is if people see 
an improvement immediately when you start charging fees. If 
there aren't things that they can see that are the things that 
they would like to have happen, then they are not going to be 
very supportive.
    We have limited dollars that are available to us in terms 
of our recreation budget. The recreational use of the national 
forests is increasing exponentially. People have expectations 
of having a decent experience when they get to the national 
forests.
    I don't support the idea of charging everybody who comes to 
the national forest or anywhere near that, but I do think there 
are some places like we are experimenting with in the fee demo 
process where it makes sense to charge additional fees. We have 
been at it long enough, I think, that where we can demonstrate 
that it is a good project, a good process and we would like to 
work with you in getting some kind of more permanent authority.
    Mr. Peterson. The gentleman from Idaho, Mr. Otter.
    Mr. Otter. Thank you, Mr. Chairman.
    I have one question that I want to close with. That is, I 
noticed in the budget where you have $131 million for 
additional land acquisition for the Forest Service and I also 
noticed where some of the funding that you are asking for is to 
go to kind of slow the growth of backlogged maintenance that 
you need, which would suggest to me that you have maintenance 
that continues to grow and needs that continue to grow on the 
land that you now have.
    That leads me to the question of why would you want to buy 
more land if you are not taking care of what you have?
    Mr. Bosworth. Well, in many cases lands that we acquire are 
lands that are in holdings or surrounded by national forest and 
actually in a lot of cases it is more efficient if it is all in 
national forest ownership than having in-holdings there where 
you are surveying the corners. It is more expensive to design 
projects and so on.
    Now, I don't want to imply that that is the way that all 
the land acquisition would be. There is also in a lot of cases 
tremendous support both locally as well as from Congressional 
members for some of the land acquisition projects that are in 
areas that are sensitive for people. They have sensitive 
species on them. They are places where people want to recreate. 
They don't want to see subdivisions developed and they would 
like to have the Forest Service manage them as part of the 
national forest system.
    So, you know, there is a lot of support for it. I think 
that within our budget we don't increase our costs in most 
cases because again most or I think virtually all of them are 
in-holdings that are usually closely surrounded by national 
forest system lands.
    Mr. Otter. Are these generally pursued under a willing 
buyer-willing seller agreement?
    Mr. Bosworth. Almost always. There may be a few cases where 
we are looking for rights of way or something like that that 
may not be quite so willing. But the land acquisition 
purchases, they are not situations that I can think of right 
now. I want to say that has never happened, but I can't think 
of circumstances right now that are not willing buyer-willing 
seller.
    Mr. Otter. Sometimes the seller becomes willing because he 
can't do anything else with his land because of the existence 
of that species that you were talking about, potentially 
endangered or some other activity that is limiting to the land.
    I certainly have been helpful from time to time in my short 
time in Congress in working between the Forest Service and 
private landowners that were willing sellers. But mostly they 
became willing sellers because there were a lot of other things 
that they wanted to do to the land that they couldn't.
    Finally, with the land acquisition as a whole, one of the 
things that I am really concerned about, especially in a State 
like Idaho, is that to the extent--and let me just take one 
country in Idaho, Valley County--only 8 percent of Valley 
County is private ground. To the extent that one more acre is 
bought there, that school system loses the local infrastructure 
of the cities and the counties, all of the services that are 
provided for the counties have less of a tax base.
    I would be in hopes that, especially for counties that say 
50 percent or 75 percent--50 percent I would prefer--areas, 
States with 50 percent, is that we do something to trade land 
within that county if we possibly can to make something more 
accessible for establishing a tax base because we are losing 
the better part of our school systems. We are losing the better 
part of local law enforcement.
    The only base of revenues that those local folks have is 
that land. Every time you folks buy an acre you take another 
acre off of our tax roles.
    Mr. Bosworth. In most cases land exchanges are the 
preferable way to round out the in-holdings and to meet other 
people's needs. Even with land exchanges, since we do that on a 
value for value basis, sometimes there are occasions where the 
piece of land that we are exchanging, that we are giving up, is 
more expensive because it is near a community or something like 
that.
    So, it may be five acres that we are exchanging for 50,000 
acres of land. So, we are acquiring more acres than what we are 
giving up although the value is equal.
    Mr. Otter. The problem of it is the Forest Service is not 
paying your tax bill in the first place. If I have an acre of 
Weyerhaeuser ground or Boise Cascade or Plum Creek or Potlatch 
or any of the other folks that own massive amounts of forested 
ground in Idaho, their average payment into the local coffers 
is $8.80. The max that the Forest Service has ever paid is less 
than $.80.
    Mr. Bosworth. The Payments to States that was passed by 
Congress and signed into law hopefully will be helpful to many 
of these rural counties that depend on some of the national 
forest revenues to at least be more assured of what the dollars 
are that they are going to get. I think 76 percent of the 
counties have elected to switch from the historic payment 
system to the full payment amount under that public law.
    Mr. Otter. I thank you, Mr. Chairman, and I generously 
yield back the balance of my time.
    Mr. Peterson. We are so thankful.
    The only thing I would say about what you just mentioned is 
that if PILT is an example that after five or 6 years we pay 
half of the authorized amount for this program, as PILT has 
done historically, then these people won't get what they need.
    So, the history of the Federal Government payments in lieu 
of taxes is deplorable in my view. It is just awful. That is 
not your fault.
    But dealing with the question the gentleman just raised, I 
just happen to have a bill in my hand called The Good Neighbor 
Act. It says that if 50 percent of a county is owned by the 
four Federal agencies that to buy more land in that county they 
must sell land, but with an exception. The exception is from 50 
percent to 66 percent that they must hold a hearing in the 
county affected. They must give notice to the county, State and 
Federal elected officials and the Governor must approve.
    Now from 66 percent up, that is where they own two-thirds 
of it, the county elected officials must approve and the 
Governor must approve and the hearing process must go ahead.
    So, it is a process where there is an exception to selling 
some if you buy some, but it puts the decision back at the 
local level from 50 to 66 percent with the Governor and 66 and 
up with the county officials. So, is this a process that seems 
to make some sense?
    Mr. Bosworth. Well, I won't want to commit myself to it 
without having a chance to really examine it carefully.
    Mr. Peterson. It is pretty simple.
    Mr. Bosworth. There is no question that it is a problem for 
some of these counties that do have a very high proportion of 
the country in Federal ownership. We do want to be good 
neighbors. I have to look at that more carefully to really 
know.
    Mr. Peterson. We will get you a copy of it. It is pretty 
simple. It is not legalese. It is straightforward.
    Is there a long-term plan addressing all the tasks that 
need to be completed in order to achieve financial 
accountability?
    Mr. Bosworth. We do have a long-term. But we have a plan to 
achieve a clean financial audit and to clean up our financial 
management system. That is a very, very high priority. We have 
to get our accounting house, our financial house in order. We 
completed this year the second year of operating under a fully 
compliant financial system. We call it FFIS. It is the 
Foundation Financial Information or Implementation System. I 
can't give you exact words. But that is a system we have been 
operating on now for 2 years. We know that we have some 
problems with some of the feeder systems that work into that. 
We are working on that with the department and trying to 
correct those feeder systems.
    We implemented an agency-wide strategy for valuing our real 
property. Making sure that we have good real property 
information and documentation of that information is critical 
to getting a clean financial audit.
    We are developing and implementing a field-based budget 
formulation system which we refer to as BES and we are making 
progress in our cash reconciliation process which is another 
area that we have been short on in the past several years.
    So, my hope and expectation, in fact my full expectation is 
that we will be able to achieve a clean audit on Fiscal Year 
2002.
    Mr. Peterson. What are the plans and the timeline for 
linking budget formulation to agency goals?
    Mr. Bosworth. Well, we have our agency strategic plan. That 
strategic plan lays out what our goals are. We develop our 
annual performance plan and there are budgets. Our budget 
proposals are linked to our annual performance plans. We are in 
the process of trying to make sure from top to bottom that that 
is all aligned. I don't believe that it has been aligned as 
well in the past as what it needs to be and we are working on 
that.
    Do you want to add somebody to that, Hank?
    Mr. Kashdan. We have actually experimented. In Fiscal Year 
2003 we tried to develop an annual performance plan that would 
help the field in formulating its budget. We critiqued that 
process and have now actually outlined the process for 2004. 
Where we will incorporate our annual performance goals right 
within the budget submission to the department, to be reflected 
in the President's budget. So, we actually think we are making 
some very good headway to integrating performance directly into 
the presentation of the budget that ties back to the strategic 
plan.
    Mr. Peterson. When will you have a planning rule in place?
    Mr. Bosworth. Well, we have a planning rule in place now. 
It was developed in 1982. Then we have an updated planning rule 
that was January 2001. We have some concerns about that 
planning rule and we have been working on a new planning rule 
that uses the same concepts of a science-based collaboration 
and sustainability.
    What we are trying to do is simplify it, get it down to 
fewer pages, frankly, and to make it affordable. Something 
where we can actually get a forest plan completed in a 
reasonable period of time, rather than taking 10 years to 
develop a 15-year plan.
    The expectation is to have a draft rule go out for public 
comment probably in April and then we would have a 60-day 
comment period and hopefully we would be able to come out with 
a final rule late this year.
    Mr. Peterson. If Congress provides funds for the economic 
action program and stewardship incentive program, does the 
agency have the capacity to implement?
    Mr. Bosworth. If Congress were to decide to fund the 
economic action program, you bet we would be able to implement 
it. We have a lot of skills in doing that. We have been very 
successful in the past in implementing economic action programs 
and we would do a very good job of it.
    Mr. Peterson. Well, I would like to thank you, Chief Dale 
Bosworth, Sally Collins and Hank Kashdan, your support team, 
for coming before us today and candidly answering our 
questions.
    I also want to thank the members of the committee and 
member who have staffs who are still here who have additional 
questions for the witnesses, we ask you to furnish them in 
writing. The hearing record will be held open for 10 days for 
those responses.
    Mr. Bosworth. Thank you.
    Mr. Otter. Thank you.
    Mr. Peterson. If there is no further business before the 
Subcommittee, the Chairman again thanks the members of the 
Subcommittee and our witnesses.
    This Subcommittee stands adjourned.
    [Whereupon, at 6:03 p.m., the Subcommittee was adjourned.]

                                   - 

</pre></body></html>
